No. 20A138
IN THE SUPREME COURT OF THE UNITED STATES
GATEWAY CITY CHURCH; THE HOME CHURCH; THE SPECTRUM CHURCH, ORCHARD
COMMUNITY CHURCH; TRINITY BIBLE CHURCH,

Applicants
v.
GAVIN NEWSOM, in his official capacity as Governor of the State of California;
SANDRA SHEWRY, M.D., in her official capacity as Acting Director of California
Department of Public Health; SARA H. CODY, M.D., in her official capacity as Santa
Clara County Health Officer; COUNTY OF SANTA CLARA,

Respondents.
To the Honorable Elena Kagan, Associate Justice of the
United States Supreme Court And Circuit Justice for the Ninth Circuit

MOTION FOR LEAVE TO FILE BRIEF AMICUS CURIAE OF CALVARY CHAPEL SAN JOSE,
SOUTHRIDGE BAPTIST CHURCH OF SAN JOSE, AND ADVOCATES FOR FAITH & FREEDOM
IN SUPPORT OF APPLICANTS

ROBERT H. TYLER
JENNIFER L. BURSCH

Counsel of Record

TYLER & BURSCH, LLP
25026 Las Brisas Road
Murrieta, California 92562

rtyler@tylerbursch.com

jbursch@tylerbursch.com
Counsel for Amicus Curiae

On behalf of Calvary Chapel San Jose (“CCSJ”), Southridge Baptist Church of San Jose
(“Southridge”), and Advocates for Faith & Freedom (“Advocates”), Tyler & Bursch, LLP
respectfully moves for leave to file a brief amicus curiae in support of Applicants’ Emergency
Application for Writ of Injunction, without 10 days’ advance notice to the parties of Amicus
Curiae’s intent to file as ordinarily required. In accordance with the Court’s order of April 15,
2020, the proposed brief conforms to the formatting requirements of Rule 33.2.
In light of the expedited briefing schedule set by the Court, it was not feasible to give 10
days’ notice, but Amicus Curiae was nevertheless able to obtain a position on the motion from the
parties. Counsel for Applicants Gateway Church et.al. consent to the filing of this amicus brief.
Counsel for Respondents do not consent to the filing of this amicus brief.
CCSJ are Southridge are two churches located in Santa Clara County and have been
meeting indoors for various worship services. Both CCSJ and Southridge filed a federal lawsuit
against Santa Clara County and California Governor Gavin Newsom .Calvary Chapel San Jose,
et.al. v, Sara H. Cody, et.al., No. 5:20-cv-03794 VKD (D. Cal. filed June 9, 2020). That lawsuit is
pending and challenges state and county health orders prohibiting indoor worship services based
on the Free Exercise Clause of the First Amendment.
Located in the same county as Applicants, the outcome of this Court’s ruling on the pending
Emergency Application for Writ of Injunction will have an immediate and direct impact on the
constitutional rights of Amicus Curiae and the federal and state lawsuits to which they are parties.
Importantly, Amicus Curiae’s brief brings to the attention of the Court relevant matter not
already brought to its attention by the parties that may be of considerable help to the Court. Rule
37.1. This brief addresses health orders not addressed by Applicants in this case. The health order
is dated October 5, 2020 and entitled Revised Mandatory Risk Reduction Measures Applicable to
All Activities and Sectors to Address the COVID-19 Pandemic (“Risk Reduction Order”). (Exhibit
C.) The Risk Reduction Order establishes a significant exemption to the application of all Santa
Clara County health orders that are relevant in this case. The exemption addressed herein renders

ii

the County’s ban on indoor worship subject to strict scrutiny under the First Amendment because
the ban on indoor worship is not neutral and generally applicable.
Therefore, amicus curiae request leave of this Court to file the following amicus brief
pursuant to Rule 37.2(b) to address the Risk Reduction Order.

iii

No. 20A138
IN THE SUPREME COURT OF THE UNITED STATES
GATEWAY CITY CHURCH; THE HOME CHURCH; THE SPECTRUM CHURCH, ORCHARD
COMMUNITY CHURCH; TRINITY BIBLE CHURCH,

Applicants
v.
GAVIN NEWSOM, in his official capacity as Governor of the State of California;
SANDRA SHEWRY, M.D., in her official capacity as Acting Director of California
Department of Public Health; SARA H. CODY, M.D., in her official capacity as Santa
Clara County Health Officer; COUNTY OF SANTA CLARA,

Respondents.
To the Honorable Elena Kagan, Associate Justice of the
United States Supreme Court And Circuit Justice for the Ninth Circuit

BRIEF AMICUS CURIAE OF CALVARY CHAPEL SAN JOSE, SOUTHRIDGE BAPTIST CHURCH
OF SAN JOSE, AND ADVOCATES FOR FAITH & FREEDOM IN SUPPORT OF APPLICANTS
ROBERT H. TYLER

Counsel of Record

TYLER & BURSCH, LLP
25026 Las Brisas Road
Murrieta, California 92562

rtyler@tylerbursch.com

Counsel for Amicus Curiae

TABLE OF CONTENTS
TABLE OF AUTHORITIES ..................................................................................... iii
INTRODUCTION ....................................................................................................... 1
INTEREST OF THE AMICUS CURIAE ................................................................... 1
I.

CALVARY CHAPEL SAN JOSE (“CCSJ”) .......................................................... 1

II. SOUTHRIDGE BAPTIST CHURCH OF SAN JOSE (“SOUTHRIDGE”) ............... 3
III. ADVOCATES FOR FAITH & FREEDOM........................................................... 4
SUMMARY OF THE ARGUMENT ............................................................................ 4
STATEMENT OF FACTS........................................................................................... 4
ARGUMENT .............................................................................................................. 7
I.

SANTA CLARA COUNTY’S REVISED MANDATORY RISK REDUCTION
ORDER RENDERS THE COUNTY’S PROHIBITION OF INDOOR WORSHIP
UNCONSTITUTIONAL. .................................................................................... 7

CONCLUSION ........................................................................................................... 9
EXHIBITS

ii

TABLE OF AUTHORITIES

Federal Cases
Church of the Lukumi Babalu Aye, Inc. v. City of Hialeah,
508 U.S. 520 (1993) ..................................................................................................... 7
Employment Div., Dept. of Human Resources of Ore. v. Smith,
494 U.S. 872 (1990) ..................................................................................................... 7
Governor Cuomo’s Cluster Action Initiative. Roman Catholic Diocese of Brooklyn v.
Cuomo,
141 S. Ct. 63 (2021) (per curiam) ................................................................................. 7
S. Bay United Pentecostal Church v. Newsom,
141 S. Ct. 716 (2021) ............................................................................................ 7, 8, 9
State Statutes
California Code of Civil Procedure 177.5 ............................................................. 2, 3, 5, 6
California Code of Civil Procedure § 1218(a) .............................................................. 2, 3
Rules
Rule 37 ............................................................................................................................... 1
Rule 37(1) .......................................................................................................................... 1

iii

INTRODUCTION
Pursuant to this Court’s Rule 37(1), Amici Curiae will present county health
orders applicable to the facts of this case that have not already been brought to the
Court’s attention by Gateway City Church in support of Applicants’ Emergency
Application for Writ of Injunction. This pertinent information arises from a parallel
case involving amici presently being litigated in the Santa Clara County Superior
Court and the Northern District of California. The health orders addressed in this
brief are directly relevant to show that the lower courts errored in their analysis of
whether the Santa Clara County health orders are neutral and generally applicable.
INTEREST OF THE AMICUS CURIAE 1
I.

CALVARY CHAPEL SAN JOSE (“CCSJ”)
Calvary Chapel San Jose (“CCSJ” or “Church”) is located within Santa

Clara County, California. CCSJ’s sanctuary capacity is approximately 1,800
people. Presently, the church holds two Sunday morning worship services of
approximately 500 to 600 persons each service. CCSJ filed a lawsuit against Santa
Clara County and its health official, Dr. Sarah H. Cody, in United States District
Court for the Northern District of California, San Jose Division. Calvary Chapel
San Jose, et.al. v. Newsom, et.al., No. 5:20-cv-03794 VKD (D. Cal. filed June 9,
2020. CCSJ is seeking injunctive and declaratory relief against the County’s
COVID-19-related health orders. CCSJ holds indoor worship gatherings every
Sunday and hosts small indoor prayer gatherings throughout the week.
The County of Santa Clara began issuing administrative fines against CCSJ
on October 23, 2020, because it has allegedly failed to comply county health orders.
1

Consistent with this Court’s Rule 37.6, Amici Curiae state that this brief
was not authored in whole or in part by counsel for any party, and no person or
entity other than Calvary Chapel San Jose, Southridge Church, and their counsel
made a monetary contribution to the preparation or submission of this brief.
Applicants have consented to the filing of this brief. However, Respondents did not
consent.

1

For several months, CCSJ has been fined $5,000 per day even for days when no
indoor worship services occurred. The fines total close to $1,000,000.
Santa Clara County filed its own lawsuit against CCSJ on October 28, 2020,
in Santa Clara County Superior Court. The People of the State of California, County
of Santa Clara County, Sara H. Cody, M.D. v. Calvary Chapel San Jose, Mike
McClure, and Does 1-50, Case No.: 20cv372285 (Cal. Sup. Ct. filed October 27,
2020). The County immediately sought a temporary restraining order (TRO) that
was granted on November 2, 2020, which enjoined the Church from conducting
any gathering inside its church building. The TRO enforced county health orders
that prohibited indoor religious gatherings in excess of 100 people or 25% of
building capacity, whichever was less.
The TRO was modified on November 23, 2020 to reflect modified state and
county health orders that prohibited all indoor worship services. The Santa Clara
County Superior Court issued a Preliminary Injunction against CCSJ on December
1, 2020.
Meanwhile, on November 24, 2020, the Superior Court held CCSJ in
contempt of court for meeting indoors and violating county health orders. (See
Exhibit A.) The Church was fined $22,000 pursuant to California Code of Civil
Procedure § 1218(a) and sanctioned $33,000 pursuant to California Code of Civil
Procedure 177.5. (Id. at p. 3.)
The Church, Pastor Mike McClure, and Youth Pastor Carson Atherley were
fined and sanctioned in a second contempt hearing that began on January 15, 2021.
(See Exhibit B.) The Church was again fined $35,000 pursuant to California Code
of Civil Procedure § 1218(a) and sanctioned $52,500 pursuant to California Code
of Civil Procedure 177.5. (Id. at p. 9.) The superior court also ordered fines against
the Church in the amount of $13,000 pursuant to California Code of Civil Procedure
§ 1218(a) and suspended sanctions in the amount of $19,500 pursuant to California

2

Code of Civil Procedure 177.5. (Id.) Pastor Mike McClure was fined $15,000
pursuant to California Code of Civil Procedure § 1218(a) and sanctioned $22,500
pursuant to California Code of Civil Procedure 177.5. (Id. at p. 12.) Youth Pastor
Carson Atherley was fined $11,000 pursuant to California Code of Civil Procedure
§ 1218(a) and sanctioned $16,500 pursuant to California Code of Civil Procedure
177.5. (Id. at p. 16.)
In sum, CCSJ has been subjected to $142,500 of court-ordered fines and
sanctions. Pastor Mike McClure has been subjected to $37,500 in court-ordered
fines and sanctions. Youth Pastor Carson Atherley has been subjected to $27,500
in court-ordered fines and sanctions.
II.

SOUTHRIDGE BAPTIST CHURCH OF SAN JOSE (“Southridge”)
Southridge presently conducts religious worship services on Sunday

afternoons at inside the church building at CCSJ. Southridge is also a co-plaintiff
with CCSJ in the lawsuit against the Santa Clara County and its health official, Dr.
Sarah H. Cody, filed in the United States District Court for the Northern District of
California, San Jose Division. (Calvary Chapel San Jose, et.al. v. Newsom, et.al.,
No. 5:20-cv-03794 VKD (D. Cal. filed June 9, 2020.)
At the beginning of the COVID-19 pandemic in 2020, Southridge Church
rented a drive-in movie theater each Sunday where it held worship services while
people could remain in their cars and participate in the worship service. The County
issued the church a cease-and-desist letter ordering Southridge to cease using the
drive-in theater claiming the gathering at a drive-in theater was a violation of the
County’s health orders. Southridge eventually began holding its worship services
in CCSJ’s large sanctuary. Southridge usually has no more than 100 persons in
attendance. Santa Clara County has issued administrative fines against Southridge
for holding indoor services in CCSJ’s 1,800 seat sanctuary. Southridge has received
approximately $65,000 in administrative fines since October 2020.

3

III.

ADVOCATES FOR FAITH & FREEDOM
Advocates for Faith and Freedom (“Advocates”) is a California-based non-

profit law firm dedicated to protecting First Amendment liberties. Advocates seeks
to protect the right to religious liberty by ensuring that that government action does
not unlawfully create a substantial burden on religion. Since the beginning of the
COVID-19 pandemic, Advocates has counseled hundreds of churches, synagogues
and private religious schools regarding state and county health orders. Advocates
has provided funding for litigation in numerous lawsuits, excluding this particular
case. The resolution of this case is of great importance to Advocates for Faith &
Freedom due to the impact it will have upon future cases involving religious liberty.
SUMMARY OF THE ARGUMENT
This brief addresses a health orders not addressed by Applicants
in this case. The health order is dated October 5, 2020 and entitled
Revised Mandatory Risk Reduction Measures Applicable to All
Activities and Sectors to Address the COVID-19 Pandemic (“Risk
Reduction Order”). (Exhibit C.) The Risk Reduction Order establishes a
significant exemption to the application of all Santa Clara County
health orders that are relevant in this case. The exemption addressed
herein renders the County’s ban on indoor worship subject to strict
scrutiny under the First Amendment because the ban on indoor worship
is not neutral and generally applicable.
STATEMENT OF FACTS
In addition to the Santa Clara County health orders addressed in the
Application for Emergency Writ of Injunction, County Health Officer Sarah H.
Cody, M.D. adopted an order dated October 5, 2020, entitled Revised Mandatory
Risk Reduction Measures Applicable to All Activities and Sectors to Address the
COVID-19 Pandemic (“Risk Reduction Order”). (Exhibit C.) Following the

4

adoption of this overarching order, more specific orders have been adopted and
amended as to certain businesses and activities, such as the Mandatory Directive
for Gatherings.
The countywide Risk Reduction Order requires full compliance with all
County health orders. (Id. at p.4, ¶5 and p. 6, ¶11.) The County health orders include
the Mandatory Directive on Gatherings (Id. at p.6, ¶11; see also Exhibit D), the
Mandatory Directive on Capacity Limitations (Exhibit E), and the mandatory
submission of the Social Distancing Protocol (Exhibit F) on the required form
entitled Revised Social Distancing Protocol. (Exhibit F.) A violation of a
mandatory directive is deemed to be a violation of the October 5 Risk Reduction
Order. (See e.g. Exhibit D, p.3.)
The Risk Reduction Order provides that
“[i]n addition to complying with all provisions of this
Order, all individuals and entities, including all
businesses and governmental entities, must also
follow any applicable directives issued by the
County Health Officer and any applicable “COVID19 Industry Guidance” issued by the California
Department
of
Public
Health,
available
at covid19.ca.gov/industry-guidance/.”
(Exhibit C, p. 4, ¶ 5.) However, the Risk Reduction Order also establishes a
significant and glaring exemption from the Risk Reduction Order
All individuals, businesses, and other entities in the
County are ordered to comply with the applicable
provisions of this Order. For clarity, individuals who
do not currently reside in the County must comply
with all applicable requirements of the Order when
they are in the County. Governmental entities must
follow the requirements of this Order applicable to
businesses, but governmental entities and their
contractors are not required to follow these
requirements to the extent that such requirements
would impede or interfere with an essential
governmental function, as determined by the
governmental entity, unless otherwise specifically
directed in this Order or by the Health Officer.
(Exhibit C, pp. 2-3, ¶ 2 (emphasis added).)

5

In addition to the gaping hole created by exempting government and
government contractors from the health orders, the Risk Reduction Order narrowly
defines “gathering” so that the ban is on gatherings is suspiciously limited to
persons gathered in an “coordinated” or “organized” fashion. (Exhibit C, p.4-5, ¶
6(c).) A “gathering” does not apply to persons in the same place at the same time
but engaged in “separate activities.” (Id.)
For purposes of this Order, a “gathering” is any
indoor or outdoor event, assembly, meeting, or
convening that brings together people from separate
households in a coordinated fashion. The limitations
on gatherings set forth in this Order apply to
gatherings for any purpose, including for economic,
social, religious, cultural, or other purposes such as,
by way of example and not limitation, a conference,
worship service, performance, or party. For clarity,
a gathering does not include normal operations in:
childcare settings or preschool, kindergarten,
elementary, secondary, or higher education
classrooms; areas where people may be in transit; or
settings in which people are in the same general
space at the same time but engaged in separate
activities, including, by way of example, medical
offices, hospitals, or business environments like
offices, stores, and restaurants where people may be
working, shopping, or eating in the same general area
but are not gathering together in an organized
fashion. A gathering also does not include internal
meetings exclusively involving personnel of a single
business held at that business’s own facility because
those activities are subject to separate provisions of
this Order and Health Officer directives.
(Id.)
Santa Clara County also requires all businesses, including churches, to
complete a Social Distancing Protocol form. (Exhibit F; Exhibit G.) The form must
be submitted online without modification and certified under the penalty of perjury.
(Id.) The form requires the applicant to agree to comply with all applicable health
orders, even though some of the health orders - like the ban on indoor worship
services - creates an unconstitutional condition precedent. CCSJ has been fined tens

6

of thousands of dollars for not submitting the Social Distancing Protocol online
and, thereby, accepting the County’s unconstitutional conditions.
ARGUMENT
I.

SANTA CLARA COUNTY’S REVISED MANDATORY RISK

REDUCTION ORDER RENDERS THE COUNTY’S PROHIBITION OF
INDOOR WORSHIP UNCONSTITUTIONAL.
Under the Free Exercise Clause, a law that burdens religious practice does
not need to be justified by a compelling governmental interest if it is neutral and of
general applicability. Employment Div., Dept. of Human Resources of Ore. v.
Smith, 494 U.S. 872 (1990). If a law is not neutral or of general applicability, it is
invalid unless it is justified by a compelling government interest and is narrowly
tailored to advance that interest (referred to as “strict scrutiny”). Church of the
Lukumi Babalu Aye, Inc. v. City of Hialeah, 508 U.S. 520 (1993). “Where the State
has in place a system of individual exemptions, it may not refuse to extend that
system to cases of religious hardship without compelling reason”. Smith, 110 S. Ct.
at 1603.
On November 25, 2020, the U.S. Supreme Court issued a per curiam
opinion in Diocese of Brooklyn granting an extraordinary writ of injunction barring
enforcement of the restrictions on indoor worship contained in Governor Cuomo’s
Cluster Action Initiative. Roman Catholic Diocese of Brooklyn v. Cuomo,
141 S. Ct. 63 (2021) (per curiam). Notwithstanding the State of California’s
arguments to the contrary, this same rationale was deemed applicable to Governor
Newsom’s health orders finding them to lack neutrality and general applicability.
S. Bay United Pentecostal Church v. Newsom, 141 S. Ct. 716 (2021).
Now, Santa Clara County argues that its own health orders are neutral and
generally applicable. Therefore, it contends that its current ban on indoor worship
is not unconstitutional. However, Santa Clara County’s orders should suffer the

7

same fate as the State’s health orders because its arbitrary definition of a
“gathering” is far afield from the neutrality required by this Court.
The Santa Clara County Health Officer’s October 5, 2020 Risk Reduction
Order requires all business, including religious gatherings, to ensure social
distancing, masks and other requirements are implemented. (Exhibit C, page 5, ¶
9.) However, the Risk Reduction Order expressly exempts government entities and
their contractors “to the extent that such requirements would impede or interfere
with an essential government function ….” (Id. page 2, ¶2.) Additionally, the
County defines a “gathering” to include a religious or worship service but excludes
gatherings in schools, higher education classrooms, areas where people may be in
transit, or settings in which people are in the same general space at the same time
but engaged in separate activities such as in business environments, offices, stores
and restaurants where people may be “eating in the same general area but are not
gathering together in an organized fashion.” (Id. page 4, ¶ 6(c).) The exemption in
the Risk Reduction Order and definition of “gathering” poses a gaping hole of
exemptions allowing numerous businesses and organizations to operate indoors
while prohibiting religious worship services indoors.
It appears that many people could dine at a restaurant, so long as their
attendance was not “coordinated” or “organized” and so long as they are engaged
in a separate activity. Would it be permissible for CCSJ to open its 1,800-seat
sanctuary to one hundred people making individual and unorganized prayers at the
same time? It would appear to be permissible by the strict definition of a gathering.
But it would not be permissible if those same people whispered the same prayer in
a coordinated manner. This distinction based on “coordination” or “organization”
can hardly be justified by science.
It is important to note, however, that CCSJ has been held in contempt of
court and fined by the County on numerous occasions where small groups of

8

individuals from 3 to 7 people have gathered together to pray inside the building at
CCSJ. (Exhibit B, p. 5-8.) “Gathering” includes a religious or worship service but
excludes gatherings in schools, higher education classrooms, areas where people
may be in transit, or settings in which people are in the same general space at the
same time but engaged in separate activities such as in business environments,
offices, stores and restaurants where people may be “eating in the same general area
but are not gathering together in an organized fashion.” (Id. page 4-5, ¶ 6(c).)
To summarize, Santa Clara County’s treats religious gatherings and worship
services discriminatorily while allowing numerous secular gatherings to occur.
Those exempted from the gathering prohibition include the government and
government contractors “to the extent that such requirements would impede or
interfere with an essential governmental function, as determined by the
governmental entity.” (Exhibit C, p. 2-3, ¶2.) Also exempt are large gatherings of
people in the same place at the same time but who are not coordinated or organized
in the same activity. Purportedly, these orders exempt persons gathered in hospital
waiting rooms and medical offices, hundreds of people eating at a restaurant at the
same time, or persons waiting for different trains or buses in a transit station.
Theoretically, if one hundred people are at an airline terminal all waiting to load
onto a plane, that gathering is permissible regardless of the fact that the passengers
are all gathering for the same reason – to fly to a specific airport on the same plane.
Santa Clara County’s health orders banning indoor worship gatherings can hardly
withstand strict scrutiny because the Risk Reduction Order and the definition of
“gathering” combine to create the circumstance where the exception swallows the
rule.
CONCLUSION

9

Amici concur with the brief filed by the applicants and respectfully request
that this court find that petitioners will likely succeed on the merits and issue
injunctive relief against the County.
Respectfully submitted,
/s/ Robert H. Tyler
ROBERT H. TYLER

Counsel of Record

TYLER & BURSCH, LLP
25026 Las Brisas Road
Murrieta, California 92562

rtyler@tylerbursch.com

Counsel for Amicus Curiae
FEBRUARY 2021

10

CERTIFICATE OF SERVICE
I hereby certify that this corrected Brief was sent by e-mail, this date, to all
counsel or parties of record.
Dated February 24, 2021
/s/ Robert H. Tyler
Robert H. Tyler, Esq.

Counsel for Amicus Curiae

11

EXHIBIT

66

r"

I
2
3

4
5

6
7

JAMES R. WILLIAMS, County Counsel (5.8.#271253)
MELISSA R. KINIYALOCTS, Lead Deputy County Counsel (S.8. #215814)
JEREMY A. AVILA, Deputy County Counsel (5.8.#282644)
MEREDITH A. JOHNSON, Deputy County Counsel (S.B. #291018)
OFFICE OF THE COUNTY COLINSEL
70 West Hedding Street, East Wing, Ninth Floor
Filed
San Jos6, California 95110-1770
December 17,2020
Telephone: (408) 299-5900
clerk of the court
Facsimite: (40s) 292-7240
Superior Court of CA
County of Santa Clara
JEFFREY F. ROSEN, District Attorney (S.B.

DAVIDANGEL,AssistantDishictAttorney
OFFICE OF THE DISTRICT ATTORNEY
)r
70 west Hedding street, west wing

8

San Jos6, California 95110-1770
Telephone:

9

Facsimile:

l0

il
t2

#163589)
(5.8.#164676)

,(.4p3)p9-7400
(408)299-8440

20CV372285
By: svera

Exempt from Filing Fees pursuant
ro Govt. Code g 6103

Attorneys for Plaintiffs
THE PEOPLE OF THE STATE OF
CALIFORNIA, COUNTY OF SANTA CLARA,
AND SARA H. CODY, M.D., IN HER OFFICIAL
CAPACITY AS HEALTH OFFICER FOR THE
COUNTY OF SANTA CLARA

l3
t4

SUPERIOR COURT OF CALIFORNIA, COI.INTY OF SANTA CLARA

15

16
17
18

THE PEOPLE OF THE STATE OF
COUNTY OF SANTA CLARA,
and SARA H.
DY, M.D., in her official
capacity as Health Officer for the County of
Santa Clara,

No.20CV372285

{*R€P€SSDI ORDER OF CONTEMPT
AND FINDING OF VIOLATION OF'
COURT ORDER; IMPOSITION OF FINES
AND SANCTIONS

l9

Plaintiffs,

20

V

2t

CALVARY CHAPEL SAN JOSE; MIKE
MCCLURE, and DOES 1-50,

22

Defendants.

23

24
25

This Court held a hearing pursuant to its November 24,2020 order to show cause as to why

26

Defendants Mike McClure and Calvary Chapel San Jose (collectively, "Defendants") should not be

27

held in contempt and sanctioned for violating the Court's November 2,2020 temporary restraining

28

order

("TRO"). This matter

came on for hearing at 1:30 p.m. in Department 19 of the above-entitled

[Proposed] Order of Contempt and Finding of Violation
of Court Order; Imposition of Fines and Sanctions

20cv372285

st

I

court, located at 16l North

2

Appearances for the parties were as stated in the record.

J

I

Street, San Jos6, California 95 I 13, on Decemb er 8,2020.

Having considered the papers submitted, including the declarations in support thereof

of

4

submitted by both parties, and argument of counsel, including argument based on the Declaration

5

Mike McClure and the facts therein, and satisfactory evidence having been presented, the Court

6

finds that all the facts set forth by Plaintiffs in their papers and supporting documentation, including

7

but not limited to the declarations of Sara H. Cody, M.D.; Stephanie Mackey; Anjani Sircar; Melissa

8

Gonzalez; and Jean Nguyen, are true and that Defendants

9

this Court's order every day from November 2,2020, to November 23,2020, inclusive, by holding

willfully violated the TRO in contempt of

l0

indoor gatherings in excess of applicable capacity limits, permitting indoor gathering attendees to

1t

sing, not enforcing or requiring indoor gathering attendees to wear face coverings, not enforcing or

t2

requiiing indoor gathering attendees to socially distance, and/or not submitting a Social Distancing

l3

Protocol to the County of Santa Clara Public Health Department. The Court further finds true the

14

facts from the Declaration of Mike McClure cited by Plaintiffs' counsel regarding Defendant

t5

McClure's admission that Defendants have violated the Court's orders and that they intend to

l6

continue to violate the Court's orders.

17

The Court further finds that the TRO was a lawful court order which the Court had authority

l8

to issue; that Defendants knew of the TRO; that Defendants were capable of obeying the TRO; and

19

that despite that ability, Defendants

20

to November 23,2020, inclusive, as detailed above. The Court further finds that Defendants'

2t

violations of its lawful court order were done without good cause or substantial justification.

willfully disobeyed the TRO every day from November 2,2020,

ORDER

22
23

24
25

IT IS HEREBY ORDERED that Defendants Calvary Chapel San Jose and Mike McClure are
in contempt of court for violating the November 2,2020 TRO.

IT IS FURTHER HEREBY ORDERED that Defendants Calvary Chapel

San Jose and

26

McClure pay a fine of $1,000 per day, as detailed below, pursuant to Code of Civil Procedure

27

section 1218(a), as penalty for the contempt finding. The Court further orders that Defendants

28

Calvary Chapel San Jose and Mike McClure pay a fine of $1,500 per day, as detailed below,
[Proposed] Order of Contempt and Finding of Violation
of Court Order; Imposition of Fines and Sanctions

Mike

20cv372285

I

pursuant to Code of Civil Procedure section 177.5, as sanctions for violating the Court's November

2

2,2020 TRO.

3

Date

4

Fine Pursuant to
CCP $ 1218(a)

Sanction Pursuant to

ccP

$ 177.s

5

November 2,2020

$1,000

$1,500

6

November 3,2020

$1,000

$1,500

7

November 4,2020

$1,000

$1,500

8

November 5,2020

$1,000

$1,500

9

November 6,2020

$1,000

$1,500

l0

November 7,2020

$1,000

$1,500

1l

November 8,2020

$1,000

$1,500

l2

November 9,2020

$

1,000

$1,500

l3

November 10,2020

$

1,000

$1,500

November 1I,2020

$1,000

$1,500

November 12,2020

$1,000

$1,500

November 13,2020

$1,000

$1,500

November 14,2020

$1, 000

$1,500

November 15,2020

$1,000

$1,500

November 16,2020

$1,000

$1,500

November 17,2020

$1,000

$1,500

November 18,2020

$1,000

$1,500

November 1"9,2020

$1,000

$1,500

November 20,2020

$1,000

$1,500

2I,2020

$1,000

$1,500

November 22,2020

$1,000

$1,500

November 23,2020

$1,000

$1,500

Sub-Total

$22,000

$33,000

14

l5
l6
l7
l8
19

20

2t
22
23

24

November
25

26
27
28

fProposed] Order of Contempt and Finding of Violation
of Court Order; Imposition of Fines and Sanctions

20cv372285

I

Grand Total:

)
3

$55,000

The Court orders that Defendants pay these fines and sanctions to the Court within sixty (60)
days of the Court's signature of this Order.

IT IS

4

SO ORDERED.

5

6

Dated:

Signed: 1211712020 '10:33 AM

By:
Hon. PETER H. KIRWAN

7

Judge of the Superior Court

8

I
l0

Approved as to form:

1l
t2

ROBERT H. TYLER
Attorney forDefendants Mike McClure and
Calvary Chapel San Jose

t3

l4
l5
t6
t7

l8
t9
2322133

20

2t
22
23

24
25

26

zl
28
[Proposed] Order of Contempt and Finding of Violation
of Court Order; Imposition of Fines and Sanctions

20cv37228s

I

SUPERIOR COURT OF CALIFORNIA, COUNTY OF SANTA CLARA

2

PROOF OF SERVICE BY ELECTRONIC MAIL

J

4

The People of the State
San Jose, et al.

of Calfornia, et al. v. Calvary

Chapel

Case

No.: 20CV372285

5

6

I, Ralitza R. Stankova, declare:

7

I am now and at all times herein mentioned have been over the age of eighteen years,

8

employed in Santa Clara County, California, and not a party to the within action or cause; that my

9

business address is 70 West Hedding Street, 9th Floor, San Jose, California 95110-1770.

My

l0

electronic service address is: ralitza.stankova@cco.sccgov.org. On December 1612020,I

11

elechonically served copies of the following:

t2

IPROPOSEDI ORDER OF CONTEMPT AND FTNDTNG OF VTOLATION OF
COURT ORDER; IMPOSITION OF FINES AND SANCTIONS

T3

14

to the people listed below at the following electronic service address

t5

Dean Broyles
dbroyles @nclrrlaw. orq

t6

Shelly Padilla
17

spadi lla@tvlerbursch.

l8

Robert Tyler

com

rfy I erfd.ty I erburs ch. c orn

t9

Mariah Gondeiro
20

mariah. gondeiro@ gmail. com

2r

Papillon Sage Boyd
pboyd@Elerb urrsch.com

))

I declare under penalty of perjury under the laws of the State of California that the foregoing
23

is true and correct, and that this declaration was executed on December 16, 2020.
24
25
26

/s/ Rnlitzn R ,lfnnhnwn
Ralitza R. Stankova

27
28

Proof of Service by Electronic Mail

Case Number : 20CY 37 2285

EXHIBIT

C6B))

Filed

1

2
J

4
5

6

7
8

9

l0
11

12

February 16,2021
Clerk of the Court
Superior Court of
JAMES R. WILLIAMS, County Counsel (5.8. #271253)
MELISSA R. KINIYALOCTS, Lead Deputy County Counsel (S.B. #215814) County of Santa Cla
JEREMY A. AVILA, Deputy County Counsel (5.8.#282644)
20cv372285
MEREDITH A. JOHNSON, Deputy County Counsel (S.8. #291018)
By: afloresca

OFFICE OF THE COLINTY COLINSEL
70 West Hedding Street, East Wing, Ninth Floor
San Jos6, California 95110-1770
Telephone: (408) 299-5900
Facsimile : (408) 292 -7 240

JEFFREY F. ROSEN, District Attorney (S.8. #163589)
DAVID ANGEL, Assistant District Attorney (5.8. #164676)
OFFICE OF THE DISTRICT ATTORNEY
70 West Hedding Street, West Wing
San Jos6, California 95110-1770

IilltlillitflSry;;{^^ff

Exempt from Fning Fees pursuant
to Gov. Code, $ 6103

Attorneys for Pl aintiffs
THE PEOPLE OF THE STATE OF
CALIFORNIA, COT]NTY OF SANTA CLARA,
AND SARA H. CODY, M.D., IN HER OFFICIAL
CAPACITY AS HEALTH OFFICER FOR THE
COIINTY OF SANTA CLARA

13

l4

SUPERIOR COURT OF CALIFORNIA, COIINTY OF SANTA CLARA

15

t6
l7
l8
t9

THE PEOPLE OF THE STATE OF
CALIFORNIA, COUNTY OF SANTA
CLARA, and SARA H. CODY, M.D., in her
official capacity as Health Officer for the
County of Santa Clara,
Plaintiffs,

No.20CV372285

TROFO-sEDI oRDER oF coNTEMpr
AND FINDING OF VIOLATION OF
COURT ORDER; IMPOSITION OF FINES
AND SANCTIONS; AND SETTING
HEARING ON MOTION FOR
ATTORNEY'S FEES

20

2t

CALVARY CHAPEL SAN JOSE; MIKE
MCCLURE, and DOES 1-50,

22
23

Defendants

24
25

This Court held a hearing pursuant to its December 22,2020 order to show cause as to why

26

Defendants Calvary Chapel San Jose and Mike McClure, as well as Calvary Chapel San Jose

27

employee and agent Carson Atherley (collectively,"Calvary Chapel Defendants") should not be held

28

in contempt and sanctioned for violating the Court's November 24,2020 modified temporary

fProFeeed] Order re Contempt and Sanctions

20cv372285

I

restraining order ("modified TRO") and December 4,2020 preliminary injunction order ("PI order")

2

directed to the Calvary Chapel Defendants. This matter came on for hearing on January 15,202I, at

J

l0:00 a.m. in Department 19 of the above-entitled court, located at 161 North l't Street, San Jos6,

4

California 951 13, and continued on January 21,2021 at l:30 p.m. and January 28,2021at l:30 p.m.

5

in the same above-entitled court. Appearances for the parties were as stated in the record.
Having considered the papers submitted and evidence admitted into the record, including the

6
7

declarations of Melissa Gonzalez, Jean Nguyen, Anjani Sircar, Mike McClure, and Stephanie

8

Mackey; witnesses who testified at the hearing, argument of counsel, and satisfactory evidence

9

having been presented, the Court finds that the Calvary Chapel Defendants, and each of them,

l0

willfully violated

11

accompanying chart, infra, fromNovember 24,2020, to January 3,2021, inclusive, by holding

t2

indoor gatherings, permitting staff and attendees to sing at such gatherings, not enforcing or

l3

requiring staff and attendees to wear face coverings at such gatherings, not enforcing or requiring

t4

staff and attendees to socially distance at such gatherings, and/or not submitting a Social Distancing

l5

Protocol to the County of Santa Clara Public Health Department. The Court is aware of the recent

t6

decisions by the United States Supreme Court in Sottth Bay United Pentecostal Church v. Newsom,

t7

592 U.S.

l8

_,

l9

orders are neutral and restrict all gatherings without reference to purpose. The Court is further aware

20

of a February 8,2A2I district court order in Gateway City Church, et al. v. Gavin Newsom, et al.,

2t

Case No. 20CV0824I (EJD), holding that indoor worship services may resume in Santa Clara

22

County at the same capacity as retail, subject to all of the other requirements for indoor gatherings in

23

the County's Gatherings Directive. The Court further finds that these decisions do not preclude a

24

finding of contempt based on the Calvary Chapel Defendants' violations of the modified TRO and

25

PI order because the contempt findings are based on multiple violations of the County's public

26

health orders that were not disturbed by the Supreme Court or by the district court order, including

27

allowing singing at indoor gatherings, not requiring attendees to wear face coverings or practice

28

social distancing, and not submitting a Social Distancing Protocol.

_,

the modified TRO and PI order, in contempt of this Court's orders, as stated in the

No. 20A136 (20-746) (Feb. 5, 202I)

and Haryest Rock

Church v. Newsom,592 U.S.

No. 20AI37 (Feb. 5, 2021), and finds them distinguishable because the County's public health

't*epcsedl Order re Contempt

and Sanctions

20cv372285

I

The Court finds that the modified TRO and PI order were lawful court orders which the

2

Court had authority to issue; that the Calvary Chapel Defendants, and each of them, knew of the

J

modified TRO and PI order; that the Calvary Chapel Defendants, and each of them, were capable of

4

obeying the modified TRO and PI order; and that despite that ability, the Calvary Chapel

5

Defendants, and each of them,

6

November 24,2020, to January 3,2021, inclusive, as detailed in this Order.

willfully disobeyed the modified TRO and PI order every day from

ORDER

7

IT IS HEREBY ORDERED that Calvary Chapel

8

9

l0
1l

San Jose,

Mike McClure, and Carson

Atherley are found to be in contempt of court for violating the modified TRO and PI order in this
matter.

IT IS FIIRTHER HEREBY ORDERED that Calvary Chapel

San Jose shall pay a fine

of

t2

$35,000, as detailed below, pursuant to Code of Civil Procedure section 1218(a), as penalty for the

l3

contempt finding. The Court fuither orders that Calvary Chapel San Jose shall pay a fine

l4

$52,500, as detailed below, pursuant to Code of Civil Procedure section 177.5, as sanctions for

l5

violating the modified TRO and PI order in this matter. The Court imposes these fines and sanctions

l6

immediately and further orders that Calvary Chapel San Jose is responsible for and required to pay

t7

them, in the amounts set forth above, to the Court within sixty (60) days of the Court's signature

l8

this Order.

l9

IT IS FURTHER HEREBY ORDERED that

a fine

of

of

of $13,000 shall be imposed against

20

Calvary Chapel San Jose, as detailed below, pursuant to Code of Civil Procedure section 1218(a),

21

penalty for the contempt finding of violating the modified TRO and PI order in this matter by not

22

properly submitting a complete Social Distancing Protocol to the County of Santa Claru. The Court

23

further orders that sanctions of $ 19,500 be imposed against Calvary Chapel San Jose, as detailed

24

below, pursuant to Code of Civil Procedure section 177.5, for violating the modified TRO and PI

25

order in this matter by not properly submitting a complete Social Distancing Protocol to the County

26

of Santa Clara. Payment of these penalties is suspended provided that Calvary Chapel San Jose

t1

properly submits a complete Social Distancing Protocol to the Counfy of Santa Clara via the

28

County's web-portal for Social Distancing Protocols by 5:00 pm on Friday, February 19,2021.

lprnnosed] Order re Contempt and Sanctions

as

20cv372285

I

IT IS FURTHER HEREBY ORDERED that a fine of $15,000 shall be imposed against Mike

)

McClure, as detailed below, pursuant to Code of Civil Procedure section 1218(a), as penalty for the

3

contempt finding. The Court further orders that sanctions of $22,500 shall be imposed against Mike

4

McClure, as detailed below, pursuant to Code of Civil Procedure section 177.5, for violating the

5

modified TRO and PI order in this matter. The Court ordered payment of these penalties suspended

6

provided that Mike McClure immediately complied with, and maintained compliance with, the

7

Court's PI order in this matter. However, the Court takes judicial notice of Calvary's on-line

8

streamed services from January

9

with the Court's order and held indoor gatherings on January 31,2021, with singing and without

3I,2021, which demonstrates that Mike McClure failed to comply

t0

requiring attendees to wear face coverings or practice social distancing at such gatherings.

11

Accordingly, these fines against Mike McClure shall be due and payable to the Court, in the amounts

t2

set forth above, within sixty (60) days of the Court's signature of this Order.

13

IT IS FURTHER HEREBY ORDERED that

a fine

of $11,000 shall be imposed against

t4

Carson Atherley, as detailed below, pursuant to Code of

l5

for the contempt finding. The Court further orders that a sanction of $16,500 shall be imposed

16

against Carson Atherley, as detailed below, pursuant to Code of Civil Procedure section

t7

violating the modified TRO and PI order in this matter. The Court ordered payment of these

l8

penalties suspended provided that Carson Atherley immediately complied with, and maintained

l9

compliance with, the Court's PI order in this matter. However, the Court takes judicial notice

2A

Calvary's on-line streamed services from January 31,2021, which demonstrate that Carson Atherley

2t

failed to comply with the Court's order and held indoor gatherings on January 31,2021, with singing

22

and without requiring attendees to wear face coverings or practice social distancing at such

23

gatherings. Accordingly, these fines against Carson Atherley shall be due and payable to the Court,

24

in the amounts set forth aboveo within sixty (60) days of the Court's signature of this Order.

Date

26

28

as penalty

177

.5, for

of

Fines and Sanctions as to Defendant Calvarv Chapel

25

)1

Civil Procedure section 1218(a),

Wednesday, November

ccP

ccP

$ 1218

$1,000

$ 177.s

$1,500

25,2020

Conduct/Bases for
Fine and/or Sanction
Thanksgiving Eve
event with approx.
220-275 attendees

4
IPrcposed] Order re Contempt and Sanctions

20cv372285

I

with singing, no face

2

coverings, no
distancing, and no

J

4

SDP
Sunday, November 29,

2020

5

6

$1,000 for 9:00 am

$1,500 for 9:00 am

service

service

$1,000 for I 1:00 am
service

$1,500 for 1l:00 am

2 indoor worship
services with singing
no face
nJ
"o.r"ring.,
distancing, and no

servlce

SDP

Approx. 200 ro 250
attendees at the 9:00

7
8

9
10

Tuesday, December 1,
2420

$

1,000

$1,500

1l

t2

am service; approx.
350 attendees at the
1 l:00 am service
Ladies Coffee Event
with approx. 200
attendees for banquetstyle event with food
and drinks for
- no face
coverings, no
distancing, no SDP
attendees

l3
14
15

Wednesday, December

$1,000

$1,500

Thursday, December 3,
2020

$1,000

$1,500

Friday, December 4,
2020

$ 1,000

$ 1,500

Sunday, December 6,

$1,000 for 9:00 am

$1,500 for 9:00 am
sefvlce

2,2020

t6

t7

l8
t9
20

2t
22

SDP

$1,500 for 11:00 am

Holiday party with
approx. 75 attendees
for dinner-party event
with food and drinks
for attendees, no face
coverings, no
distancing, no SDP
3 indoor worship
services with singing
no face.ou"ring., nJ
distancing, and no

servrce

SDP

23

24
25

26

2020

service

27
28

Another Ladies Coffee
Event with approx.
200 attendees for
banquet-style event
with food and drinks
for attendees - no face
coverings, no
distancine" no SDP
6 attendees in prayer
room, no distancing,
singing, 5 not wearing
face coverings; no

$1,000 for l1:00 am
servlce

Order re Contempt and Sanctions

20cv372285

I

$1,000 for 6:30 pm

$1,500 for 6:30 pm

service

service

Monday, December 7,
2020

$1,000

$1,500

Tuesday, December 8,
2020

$1,000

2
J

4
5

6
7
8

$1,500

9

l0

Approx. 200 attendees
at the 9:00 am service;
approx. 300 attendees
at the 1 l:00 am
service
Prayer gathering at

church with approx.
17 attendees, no face
coverings, no
distancing, no SDP
Book Club gathering
in the church caf6 for
approx. 20 attendees,
no face coverings, no
social distancing, no
SDP

1l
Separate prayer
gathering in a prayer

12

roomforapprox.

l3

attendees, no face

14

l5

Wednesday, December

$1,000

$1,500

$1,000

$1,500

Friday, December 11,
2020

$1,000

$1,500

Saturday, December 12,

$

1,000

$1,500

9,2020
l6
17

l8

Thursday, December 10,

2020

19

20

2t
22
23

24
25

coverings, no
distancing, no SDP
Prayer gathering
with 7 attendees, no
distancing, 6 people
not wearing face
coverings. no SDP
Prayer gathering with
approx. 1 I attendees
and 9 staff on site; no
distancing, most not
wearing face
coverinss. no SDP
Prayer gathering with
approx. 5 attendees,
no distancing, 3
people not wearing
face coverings, no

-

SDP

2020

26
27

Sunday, December 13,
28

13

2020

$1,000 for 9:00 am

$1,500 for 9:00 am

servrce

servlce

-

Prayer gathering
small gathering of four
attendees; two did not
wear face coverings;
no SDP
2 indoor worship
services with sineine.

6
[Pr0pesgd] Order re Contempt and Sanctions

20cv372285

I
2

$1,000 for l1:00 am

$1,500 for l1:00 am

servlce

servlce

3

attendees at the I
am service

4
5

Tuesday, December 15,
2020

$1,000

$1,500

7

Wednesday, December

$1,000

$1,500

$1,000

$

16,2020
9

t0
11

Thursday, December 17,
2020

1,500

Saturday, December 19,
2020

$1,000

$1,500

t6
t7

Sunday, December 20,

2020

l8
l9

$1,000 for 9:00 am
service

$1,500 for 9:00 am
service

$1,000 for 1 1:00 am
servlce

$1,500 for 11:00 am
servlce

20

2t
22
23

Monday, December 21,
2020

$

Tuesday, December 22,
2020

$1,000

1,000

$

1,500

24
25
26

coverings, no
distancins. no SDP
Prayer gathering with
approx. 6 attendees,
most not wearing face
coverings, not all
distancine. no SDP
Prayer gathering with

only

1

person wore face
covering, no
distancing, no SDP

13

15

Prayer gathering with

11 attendees;

t2

t4

l:00

6 attendees, 4 not
wearing face

6

8

no face coverings, no
distancing, no SDP;
approx. 300 affendees
at the 9:00 am service
and approx. 350

27
28

fhopesed] Order re Contempt and Sanctions

$1,500

Youth ministry and
prayer gathering - no
face coverings, no
distancing, no SDP
2 indoor worship
services with singing
no face.ouerings, nJ
distancing, no SDP

Approx. 300 attendees
at the 9:00 am service;
approx. 350 to 400
attendees at the 11:00
am service
Prayer gathering with
5 attendees; only 2
wore face coverings;
not properly
distanced;no SDP
Prayer gathering with
5 attendees; only I
person wore a face
covering; not properly
distanced; no SDP

20cv372285

I

Wednesday, December

$1,000

$1,500

23,2020

5 attendees;

2
J

4

Thursday, December 24,
2420

$1,000

$1,500

Saturday, December 26,
2020

$1,000

$1,500

$1,000 for 9:00 a.m.
servrce

$1,500 for 9:00 a.m.
service

$1,000 for 11:00 a.m.
service

$1,500 for 1l:00 a.m.
service

5

6
7
8

9

l0
11

12

Prayer gathering with

Sunday, December 27,

2020
13

l4

only2

wore face coverings;
not properly
distanced;no SDP
Christmas Eve service
held indoors; approx.
630 attendees in the
auditorium, plus an
additional 30 - 40
gathered elsewhere in
the church; no face
coverings; singing;no
distancing; no SDP
Prayer gathering of 4
attendees; only I
person wore a face
covering; no
distancing; no SDP
2 indoor worship
service gatherings
with singing, no face
coverings, no
distancing, no SDP

l5
16

t7
18

t9

Monday, December 28,
2020

$1,000

$ 1,500

Wednesday, December

$1,000

$1,500

$1,000 for 9:00 a.m.
service

$1,500 for 9:00 a.m.
servlce

$1,000 for 1 l:00 a.m.
service

$1,500 for 1l:00 a.m.
service

20

2t

30,2020

22
23

Sunday, January

3,202I

24
25

Approx. 200 attendees
at the 9:00 a.m.
service; approx. 300
attendees at the 11:00
a.m. service
Prayer gathering with
3 attendees; no face
coverings; no
distancing; no SDP
Prayer gathering with
3 attendees; no face
coverings; no
distancing; no SDP
2 indoor worship
services with singing
no face corre.ings, nJ
distancing; no SDP

Approx.200-230

26

attendees at the 9:00
27

a.m. gathering;
approx. 300-350

28

attendees at the I 1:00
8
IPr:oposed] Order re Contempt and Sanctions

20cY372285

a.m. gathering

I

Sub-Total (Calvary):
2
J

$35,ooo

Grand Total
(Calvarv):

$52,500
$87,500

4

Suspended Fines and Sanctions as to Defendant Calvary Chapel for Failure to Properly

5

Submit a Completed Social Distancins Protocol

6

Date

ccP

$ 1218

ccP $ 177.s

7
8

Tuesday, November 24,
2020

$1,000

$

1,500

Conduct/Basis for
Fine and/or Sanction
No Social Distancing
Protocol (SDP)
submitted

9

l0

ll
12
13

t4
15

t6
17

l8
19

20

2t

Friday, November 27,
2020
Saturday, November 28,
2020
Monday, November 30,
2020
Saturday, December 5,
2020
Monday, December 14,
2020
Friday, December 18,
2020
Monday, December 21,
2020
Friday, December 25,
2020
Tuesday, December 29,
2020
Thursday, December 31,
2020
Friday, January 1,2021

$1,000

$1,500

No SDP

1,000

$ 1 5 00

No SDP

$1,000

$ 1 5 00

No SDP

$1,000

$1,500

No SDP

$1,000

$1,500

No SDP

$ 1,000

$

1,500

No SDP

$1,000

$1,500

No SDP

1,500

No SDP

$1,000

$1,500

No SDP

$1,000

$1,500

No SDP

1,500

No SDP

$1, 000

$1,500

No SDP

$13,000

$19,500

$

$

$

1,000

1,000

$

$

22
23

Saturday, January 2,
2021

Sub-Total (Calvary):
24
25

Grand Total
(Calvary):

$32,500

26
27
28

[Prope'sed] Order re Contempt and Sanctions

20cv372285

Fines and Sanctions as to Defendant Mike McClure

I

3

4

ccP

Date

2

Wednesday,

ccP $ 177.s

$ 1218

$1, s00

$1,000

November 25,2020

5

6

Conduct/Bases for
Fine and/or Sanction
Thanksgiving Eve
event with approx.
220-275 attendees
with singing, no face
coverings, no
distancing, and no
SDP

7
8

Pastor McClure was
present for this

9

gathering.
Sunday, November 29,

t0

$1,000 for 9:00 am

$1,500 for 9:00 am

seruce

service

I,000 for I I :00 am

$1,500 for I 1:00 am

2020

l1
$

service

12

servrce

2 indoor worship
services with singing,
no face coverings, no
distancing, and no
SDP

13

Approx. 200 to 250
attendees at the 9:00

14

am service; approx.
350 attendees at the

l5

11:00 am service

l6
l7
l8
l9

Sunday, December 6,

2020

$1,000 for 9:00 am

$1,500 for 9:00 am

servlce

servlce

$1,000 for 1l:00 am

$1,500 for 11:00 am

service

service

20

2l

Pastor McClure was
present for these
worship services.
3 indoor worship
services with singing
no face .ou".ing., nJ
distancing, and no
SDP

Approx. 200 attendees
at the 9:00 am service;
approx. 300 attendees
at the 1l:00 am
service; approx. 150
attendees at the 6:30
pm service

22
23

24
25
26

Pastor McClure was
present for the 9:00
am and 11:00 am
worship services.

27
28

0

FPrepffidl Order re Contempt and Sanctions

20cv372285

I

Sunday, December 13,

2020

$1,000 for 9:00 am
servlce

S1,500 for 9:00 am
servrce

$1,000 for 1 l:00 am
servlce

$1,500 for l1:00 am
servlce

2
J

4

2 indoor worship
services with singing,
no face coverings, no
distancing, no SDP;
approx. 300 attendees
at the 9:00 am service
and approx. 350
attendees at the 11:00
am service

5

6

Pastor McClure was
present for these
worship services.

7
8

Sunday, December 20,

$1,000 for 9:00 am
service

$1,500 for 9:00 am
service

$1,000 for 1l:00 am
servlce

$1,500 for I 1:00 am
servlce

t2

2 indoor worship
services with singing
no face.ou"rirrgr, nJ
distancing, no SDP;
approx. 300 attendees
at the 9:00 am service
and 350 to 400

l3

attendees at the I 1:00
am service

9

2020

l0
t1

14

Pastor McClure was
present for the 9:00
am and I l:00 am
worship services

l5
l6
t7

Youth Ministry
gathering at
approximately 7:00
pm; 35 to 40 young
adults attending;no
face coverings, no
social distancing

l8
t9
20

2t
22
23
24
25
26

Monday, December

$1,000

$1,500

2r,2020

27

Also, a small prayer
gathering for approx.
10 people; 2 ofthem
wore face coverings,
spread out but not
maintaining 6 feet of
social distance
No SDP; Christmas
Caroling event
advertised by Calvary
Chapel

28

1

[Propcsed] Order re Contempt and Sanctions

20cv372285

I

Thursday, December

$1,000

$1,500

24,2020
2

Christmas Eve service
held indoors; approx.
630 attendees in the

auditorium, plus an
additional 30 - 40
gathered elsewhere in
the church; no face
coverings; singing;no
distancing; no SDP

J

4
5

6

Pastor McClure was
present for this

7

gathering

8

Sunday, December 27,
9

2020

l0

$1,000 for 9:00 a.m.
servlce

$1,500 for 9:00 a.m.
service

$1,000 for 1 l:00 a.m.

$1,500 for 11:00 a.m.
service

service

l1

2 indoor worship

service gatherings
with singing, no face
coverings, no
distancing, no SDP

Approx. 200 attendees
at the 9:00 a.m.
service; approx. 300
attendees at the I 1:00
a.m. service

12
13

t4

l5
Pastor McClure was
present for these

t6
t7

l8

Sunday, January 3,

2020

l9

servlce

$1,500 for 9:00 a.m.
servlce

$1,000 for 11:00 a.m.
service

$1,500 for 1l:00 a.m.
service

$1,000 for 9:00 a.m.

satherines
2 indoor worship
service gatherings
with singing, no face
coverings, no

distancing;no SDP

20

Approx.200-230

2l

attendees at the 9:00
a.m. gathering;

22

approx. 300-350
attendees at the 1l:00
a.m. gathering

23

24

Pastor McClure was
present for these

25

26

gatherings

Sub-Total (McClure):

$15,000

$22,500

a1

28

Grant Total
(McClure):

$37,500

t2

-l)lr{f'fleq

Order re Contempt and Sanctions

20cY372285

I

Fines and Sanctions as to Calvary Chapel San Jose employee and agent Carson Atherlev

3

4

ccP

Date

2

Sunday, November 29,

ccP s r77.s

$ 1218

$1,000

$1,500

2020

Conduct/Basis for
Fine and/or Sanction
2 indoor worship
services with singing
no face couerings, nJ
distancing, and no

5

SDP
6

Approx. 200 to 254

7

attendees at the 9:00

am service; approx.
350 attendees at the
1 l:00 am service

8

9
10

Atherley was present
for both worship

ll
t2

services.

Tuesday, December

1,

$ 1,000

$1,500

2020

Ladies Coffee Event
with approx. 200
attendees for banquetstyle event with food
and drinks for
attendees - no face

13

14

l5

coverings, no
distancing, no SDP

16

t7

l8

Wednesday, December

l9

2,2020

$1,000

$1,500

20

2t
22

Atherley was present
for this event.
Another Ladies Coffee
Event with approx.
200 attendees for
banquet-style event
with food and drinks
for attendees - no face
coverings, no
distancing, no SDP

23

Atherley was present
for this event.

24
25
26

Sunday, December 6,

$ I ) 5 00

$ 1,000

2020

27

3 indoor worship
services with singing.
no f-ace aoverings, no
distancing, and no
SDP

28

3

l*ropegal

Order re Contempt and Sanctions

20cv372285

Approx.200 attendees

1

at the 9:00 am service;
2

approx. 300 affendees
at the 1 l:00 am
service

3

4

Atherley was present
for the 9:00 am and
1 1:00 am worship

5

6
7

services.

Monday, December 7,
2020

$1,000

$ 1,500

8

9
10

l1
12

Tuesday, December 8,
2020

$1,000

$

1,500

l3
14

Prayer gathering at
church with approx.
17 attendees, no face
coverings, no
distancing, no SDP

Atherley was present
for this event.
Book Club gathering
in the church caf6 for
approx. 20 attendees,
no face coverings, no
social distancing, no
SDP

l5
Separate prayer
gathering in a prayer

16

room forapprox. 13
attendees, no face
coverings, no
distancing, no SDP

t7

l8
l9
20

2t

Wednesday, December

$1,000

$

1,500

9,2020

22
23

24
25
26

Sunday, December 13,

$1,000

2020

27
28

Ttfltttsedl Order re Contempt and

Sanctions

$1,500

Atherley was present
for this event.
Prayer gathering with 7 attendees, no
distancing, 6 people
not wearing face
coverings, no SDP
Atherley was present
for this event.
2 indoor worship
services with singing,
no face coverings, no
distancing, no SDP;
approx. 300 attendees
at the 9:00 am service
20cY37228s

I

and approx. 350
attendees at the 1l:00
am service

2
J

Atherley was present
for both worship

4

services
5

Sunday, December 20,

$ 1,500

$1,000

services with singing

2020
6

no face.ou"ringr, nJ
distancing, no SDP;
approx. 300 attendees
at the 9:00 am service
and 350 to 400

7
8

9

attendees at the 11:00
am service

l0

Atherley was present
for both worship

ll

services

12

l3

Thursday, December 24,
2020

$1,000

$1,500

14

Christmas Eve service
held indoors; approx.
630 attendees in the
auditorium, plus an

additional 30 - 40
gathered elsewhere in

15

l6

the church; no face
coverings; singing; no
distancing; no SDP

r7

l8

l9
Sunday, December 27,
20

2 indoor worship

$1,000

$1,500

2020

2l

Atherley was present
for this gathering
2 indoor gatherings
with singing, no face
coverings, no
distancing, and no
SDP

22

Approx. 200 attendees
at the 9:00 a.m.
service; approx. 300
attendees at the l1:00
a.m. service

23

24
25
26

Evening gathering for

Youth Ministry;
approx. ll attendees;
no face coverings. no

'r'7

28

15
lProposed] Order re Contempt and Sanctions

20cY372285

I

distancing

2

Atherley was present
for these gatherings

3

4
5

Sub-Total (Atherley):

$11,000

$16,500

Grand Total
(Atherlev):

$27,500

6

The Court fluther finds that Plaintiffs are entitled to their reasonable attomey's fees and costs
7

incurred in connection with this contempt proceeding pursuant to Code of Civil Procedure section
8

1218(a) and orders briefing and hearing on the issue of the amount of reasonable attorney's fees and
9

costs to be awarded

l0

tl
t2

if, by February 19,202l,the parties

are unable to agree on a sum. In the event

of no such agreement, Plaintiffs' opening brief shall be due on

on
be on_,202I,at
shall be done

2021, any opposition

,2021, anyreply shall be due on
p.m. inDepartment

2021,

and,

hearing shall

l9

13
T4

IT IS SO ORDERED.

l5
t6

Dated:

sisned:2t11t2021o2.32PM

p.k-\(4L1\
By:
Hon. PETER H. KIRWAN
Judge of the Superior Court

t7
18

t9
20

Approved as to form:
2t
22

ROBERT H. TYLER
Attorney for Defendants Mike McClure and
Calvary Chapel San Jose

23

24
25

26
27
28

Order re Contempt and Sanctions

20cv372285

SUPERIOR COURT OF CALIFORNIA, COT'NTY OF SANTA

1

PROOF OF SERVICE BY ELECTRONIC

2

Filed
February 16,
1
rt
Clerk of the
CA
Superior Court
Clare
of Sa

crepf,rnty

MAIL

20cv372285
By: afloresca

J

4

The People of the State of
San Jose. et al.

California, et al. v. Calvary

Chapet

Case

No.:

20CV3722ZSed:a8W:'t1j2

5

6

I, Ralitza R. Stankova, declare:

7

I am now and

at all times herein mentioned have been over the age of eighteen years,

8

employed in Santa Clara County, California, and not a party to the within action or cause; that my

I

business address is 70 West Hedding Street, 9th Floor, San Jose, Califomia 95110-1770.

l0

electronic service address is: ralitza.stankova@cco.sccgov.org. On February 912021,1

ll

electronically served copies of the following:

t2
l3

My

IPROPOSEDI ORDER OF CONTEMPT AND FTNDING OF VIOLATTON OF
COURT ORDER; IMPOSITION OF FINES, SANCTIONS, COSTS, AND
ATTORNEY'S FEES

t4

to the people listed below at the following electronic service address:

l5

Dean Broyles

dbroyles@nclplaw.ore
r6

t7

l8
t9

Shelly Padilla
spadilla@tylerbursch. com
Robert Tyler
4vler@tylerbursch. com

Mariah Gondeiro
20

mariah. gondeiro@ gmail.com

2t

Papillon Sage Boyd
pboyd@tvlerbursch. com

22

I declare under penalty of pe{ury under the laws of the State of California that the foregoing
23

is true and correct, and that this declaration was executed on February 912021.
24
25

26

/s/ Ralitza R. Stankova
RalitzaR. Stankova

27
28

Proof of Service by Electronic Mail

Case Number : 20CY 37 228 5

EXHIBIT

CCC))

County of Santa Clara
Public Health Department
Health Offrcer
976 Lenzen Ayenue,

2nd

Floor.

San Jos6, CA 95126
4A8.792.3798

ORDER OF THE HEALTH OFFICER OF THE COUNTY OF SANTA CLARA
ESTABLISHING REVISED MANDATORY RISK REDUCTION MEASURES
APPLICABLE TO ALL ACTIVITIES AIYD SECTORS TO ADDRESS
THE COVID.1g PANDEMTC
DATE OF ORDER: October 5,2A20
I

Please read this Order carefully. Violation of or failure to comply with this Order is a
misdemeanor punishable try fine, imprisonment, or both. (California Health and Safety Code
$ 120295, et seq.; Cal. Penal Code $$ 69, la8(a)(1); Santa Clara County Ordinance Code S A128; Counfy Ordinance NS-9.291.)

UNDER THE AUTHORITY OF CALIFORNIA HEALTH AND SAFETY CODE SECTIONS
IOIO4O, IO1O85, NAI75, AND SANTA CLARA COUNTY ORDINANCE CODE SECTION Ai8.
33, THE HEALTH OFFICER OF THE COLTNTY OF SANTA CLARA ("HEALTH OFFICER")
ORDERS:

1. Purpose and Intent.
a. This Order supersedes the July 2,2A20 Risk Reduction

Order of the Health Officer
("Prior Order"), and will take effect on the date and time set forth in Section l6 below,
when the California Department of Public Health allows Santa Clara County to move
into Tier 3 (Orange Risk Tier) under the State's "Blueprint for a Safer Economy"
(httpg,llqoyid l ?.qa.&oyl fur
). This Order puts in place certain local
restrictions designed to limit transmission of SARS -CoY-2, the virus that causes the
Novel Coronavinrs Disease 2019 ("COVID-19"). COVID-19 continues to pose a
severe risk to residents of our County, and significant safety measures are necessary to
protect against a surge in COVID-19 cases and deaths. This Order requires risk
reduction measures to be in place across all business sectors and activities, ensuring
necessary precautions are followed as we adapt the way we live and function in light of
the ongoing threat that the virus poses. The Health Officer will continue to monitor
data regarding and evolving scientific understanding of the risks posed by COVID-19
and may amend or rescind this Order based on analysis of that data and knowledge. As
of the effective date and time of this Order set forth in Section l6 below, all individuals
and businesses in the County are required to follow the provisions of this Order.
Govemment agencies must also follow the provisions of this Order unless otherwise
specified.

Lloard of Supervisors: Mike Wasserman, Cindy Chavez, Dave Cortese, Susan Ellenberg, S. Joseph Simitian
County Executivc: Jeffrey V. Smith

b. The primary intent of this Order is to reduce the risk of COVID-I9 in the County. All
provisions of this Order must be interpreted to effectuate this intent. Failure to comply
with any of the provisions of this Order constitutes an imminent threat and menace to
public health, constitutes a public nuisance, and is punishable by fine, imprisonment, or
both.

c.

The efforts taken under the Health Officer's previous shelter-in-place orders and the
Prior Order slowed the virus's trajectory. While the public health emergency and threat
to the County's population remain severe, the region has significantly increased its
capacity to detect cases and contain spread through widespread testing; greatly
expanded i.ts case investigation and contact tracing program and workforce; and
expanded hospital resources and capacity. In light of the above, this Order lessens the
restrictions on activities set forth in the Prior Order.

d. The restrictions set forth in this Order are based on evidence

of sontinued significant
community transmission of SARS-CoV-2 within the County; scientific evidence and
best practices regarding the rnost effective approaches to slow the transmission of
communicable diseases generally and SARS-CoV-2 specifically; evidence that the age,
condition, and health of a significant portion of the population of the County places it at
risk for serious health complications, including death, from COVID-19; and further
evidence that others, including younger and otherwise healthy people, are also at risk
for serious negative outcomes and can also spread SARS-CoV-2 to more vulnerablc
people. Because even people without symptoms can transmit the virus, and because
evidence shows the infection is easily spread, direct or indirect interpersonal
interactions can result in preventable transmission of the virus.

e. The scientific evidence shows that, at this stage of the pandemic, it remains essential to
maintain limitations and conditions to slow virus transmission to help: (a) protect the
most wlnerable; (b) prevent the health care system from being overwhelmed; (c)
prevent long-term chronic health conditions associated with COVID-19, such as
cardiovascular, kidney, and respiratory damage and loss of limbs frorn blood clotting;
and (d) prevent deaths. The restrictions set forth in this Order are necessary to slow the
spread of the COVID-19 disease, preserving health care capacity in the County and
advancing toward a point in the current public health emergency where transmission
can be controlled.

2.

Applicabitity. All individuals,

businesses, and other entities in the County are ordered to
comply with the applicable provisions of this Order. For clarity, individuals who do not
currently reside in the County must comply with all applicable requirements of the Order when
they are in the County. Governmental entities must follow the requirements of this Order
applicable to businesses, but govemmental entities and their contractors are not required to
follow these requirements to the extent that such requirements would impede or interfere with

Order of the County Health Officer
Establishing Revised Risk Reduction Measures
To Contain COVID-19 (lssued October 5,2020)
Page 2

of9

an essential govemmental function, as determined by the govemmental entity, unless otherwise
specifically directed in this Order or by the Health Officer.

3.

4.

Incorporation of Emergency Proclamations and State Orders.

&.

This Order is issued in accordance with, and incorporates by reference, the March 4,
2020 Proclamation of a State of Emergency issued by Governor Gavin Newsom; the
February 3,2A2A Proclamation by the Director of Emergency Services Declaring the
Existence of a Local Emergency in the County; the February 3,202A Declaration of
Local Health Emergency Regarding Novei Coronavirus 2019 (COVID-I9) issued by
the Health Officer; the February lA,202A Resolution of the Board of Supervisors of the
County of Santa Clara Rati$ing and Extending the Declaration of a Local Health
Emergency; and the February 10,202A Resolution of the Board of Supervisors of the
County of Santa Clara Ratif,iing and Extending the Proclamation of a Local
Emergency.

b.

This Order is also issued in light of the March 19,2A2A Order of the State Public
Health Officer, which set baseline statewide restrictions on non-residential business
activities, effective until further notice; the Governor's March 19,2A2A Executive
Order N-33-20 directing California residents to follow State public health directives;
the Governor's May 4,2020 Executive Order N-60-20; the May 7,2A20 Order of the
State Public Health officer allowing local jurisdictions to begin phased reopening; and
the August 28,2A20 Statewide Public Health Officer Order (the "state Order"), which
established California's Plan for Reducing COVID-l9 and Adjusting Permitted Sector
Activities to Keep Californians Healthy and Safe (also known as the "Blueprint for a
Safer Economy"). The May 4, 2020 Executive Order, the May 7 ,202A Order of the
State Public Health Officer, and the August 28,202A State Order expressly
acknowledge that local health officers have authority to establish and implernent public
health rneasures within their respective jurisdictions that are more restrictive than those
implernented by the State Public Health Officer.

Obligation to Follow Stricter Order. Where

a conflict exists between this Order and any
order issued by the State Public Health Offrcer or the Governor related to the COVID-19
pandemic, the most restrictive provision controls. For clarity, all individuals and entities must
comply with the State Order, any mandatory guidance issued by the California Department of
Public Health, any mandatory orders of the Governor, or any other mandatory provision of
State law to the extent it is stricter than any provision of this Order. Consistent with California
Health and Safety Code section 131080 and the Health Offrcer Practice Guide for
Communicable Disease Control in California, except where the State Health Officer may issue
an order expressly directed at this Order and based on a finding that a provision of this Order
constitutes a menace to public health, any more restrictive measures in this Order continue to
apply and control in this County. In addition, to the extent any fbderal guidelines allow

Order of the County Health Officer
Establishing Revised Risk Reduction Measures
To Contain COVID-19 (Issued October 5,2070)
Page 3

of9

activities that are not allowed by this Order, this Order controls and those activities are not
allowed.

5.

Obligation to Follow Health Officer Directives and Mandatory State Guidance. In
addition to complying with all provisions of this Order, all individuals and entities, including
all businesses and governmental entities, must also follow any applicable directives issued by
the County Health Officer and any applicable "COVID-I9 Industry Guidance" issued by the
California Department of Public Health, available at https;/lcovid I 9"ca.gov/industr)'-guidanqg{.
To the extent that provisions in the directives of the County Health Officer and the guidance of
the State Health Offrcer conflict, the more restrictive provisions apply.

6.

Definitions.

a.

For purposes of this Order, a "business" includes any for-profit, non-profit, or
educational entity, whether a corporate entity, organization, partnership, or sole
proprietorship, and regardless of the nature of the service, the function it performs, or
its corporate or entity strucfure. For clarity, "business" also includes a for-profit, nonprofit, or educational entity performing services or functions under contract with a
governmental agency.

b.

For purposes of this Order, "personnel" means the following individuals who provide
goods or services or perform operations associated with a business in the County:
employees; contractors and sub-contractors (such as those who sell goods or perform
services onsite or who deliver goods fbr the business); independent contractors (such as
"gig workers" who perform work via the business's application or other online
interface); vendors who are permitted to sell goods onsite; volunteers; and other
individuals who regularly provide services onsite at the request of the business.

c. For purposes

of this Order, a "gathering" is any indoor or outdoor event, assembly,
meeting, or convening that brings together people from separate households in a
coordinated fashion. The limitations on gatherings set forth in this Order apply to
gatherings for any purpose, including for economic, social, religious, cultural, or other
pulposes such as, by way of example and not limitation, a conference, worship service,
performance, or party. For clarity, a gathering does not include normal operalions in:
childcare settings or preschool, kindergarten, elementary, secondary, or higher
education classrooms; areas where people may be in transit; or settings in which people
are in the same general space at the same time but engaged in separate activities,
including, by way of example, medical offices, hospitals, or business environments like
offices, stores, and restaurants where people may be working, shopping, or eating in the
same general area but are not gathering together in an organized fashion. A gathering
also does not include internal meetings exclusively involving persorurel of a single

Order of the County Health Officer
Establishing Revised Risk Reduction Measures
To Contain COVID-19 (lssued October 5,202A)
Page 4

of9

business held at that business's own facility because those activities are subject to
separate provisions of this Order and Health Officer directives.

d.

For purposes of this Order, a "healthcare facility" means a facility or worksite operated
by a business which employs at least one licensed healthcare profbssional to perform
services at the facility or worksite which are within the scope of that person's
healthcare license. "Licensed healthcare professionals" are those providers who are
considered Licensed Health Professionals by the California Department of Consumer
Affairs (www.dca.ca.qov.&p
). tf
the facility is used fbr other functions in addition to healthcare, the "healthcare facility"
is limited to that portion of the overall facility in which licensed healthcare
prot'essionals and their support staff are operating. For example, if an elcmentary
school employs a registered nurse, the nurse's office is considered a healthcare facility,
but the entire school campus is not.

7.

Staying Home Is the Best Way to Reduce Risk. All people are strongly reminded that
continuing to stay home as much as possible is the best way to prevent the risk of COVID-[9,
and therefore trips and activities outside the home should be minimized. All activities that
involve contact with people outside of one's household increase the risk of getting COVID-lg.

8.

Older Adults and Individuals with Serious Underlying Medical Conditions. Older adults
(those age 70 or older) and individuals with serious underlying medical conditions (inclucting
immunocompromised state, chronic kidney disease, chronic obstructive pulmonary disease,
obesity, serious heart conditions, sickle cell disease, and diabetes) are strongly urged to stay in
their places of residence except to access critical necessities such as food and medicine. Adults
aged 50 to 69 are encouraged to minimize activities and interactions with people outside their
household to the extent practicable.

9.

Social Distancing Requirements. When outsidc their place of residence, all individuals must
strictly comply with the following "social Distancing Requirements" to the maximum extent
possible:

.

Maintaining at least six feet of social distance from individuals who are not part of their
household;
2. Wearing a face covering as rcquired by Section 10;
3. Frequently washing their hands with soap and water for at least 20 seconds, or using
hand sanitizer that is recognized by the Centers for Disease Control and Prevention as
effective in combatting COVID-19;
4. Covering their coughs and sneezes with a tissue or f-abric or, if not possible, into their
sleeve or elbow (but not into hands); and
5. Avoiding all contact with anyone outside their household when sick with a fever,
cough, or other COVID-I9 symptoms.
I

Order of the County Health Officer
Establishing Revised Risk Reduction Measures
To Contain COVID-19 (Issued October 5,2A20)
Page 5

of9

10. Face Coverings. Face coverings must be wom at all times and by all individuals as specified
in the California Department of Public Health's mandatory Guidance for the Use of Face
Coverings ("Face Covering Guidance") and in accordance with any specific directives issued
by the County Health Officer. Further, even where not required under State or local guidance
and orders, face coverings should be wom to the maximum extent possible (1) when indoors
and not in one's own residence and (2) whenever outdoors and within six feet of anyone

outside one's own household.
I

l. Limitations on Gatherings. Gathering with individuals from separate households remains
strongly discouraged because it carries significant risk of getting COVID-19. Indoor
gatherings are particularly risky, and gatherings should be held outdoors to the greatest extent
possible. Participants in gatherings of any size must adhere to Health Officer directives
applicable to gatherings, including restrictions on the size of gatherings, and also the Social
Distancing and Face Covering Requirements set forth above in Sections 9 and 10.

12. Requirements Applicable to

AII Businesses.

a.

Maximization of Telework. All businesses must continue to maximize the number of
personnel who work remotely from their place of residence. For clarity, all businesses
must require that all personnel carry out their job functions remotely if they are able to
do so.

b.

Activities that Can Occur Outdoors. All businesses are strongly urged to move as
rnany operations as possible outdoors, where there is generally less risk of getting
COVID-19. Businesses that cannot meet Social Distancing or Face Covering
Requirernents indoors may be able to operate by shifting their operations outdoors.

c.

Social Distancing Protocol.

L All businesses must prepare, submit to the County, and implement a "social
Distancing Protocol" for each facility or worksite at which any personnel or
members of the public may be present, using the form identified in Paragraph
below. The Social Distancing Protocol must confirm that the business is
achieving the applicable requirements listed in that form, which include
important mandates regarding worker and customer safety.

2. Far

3

any business that only performs services for dispersed facilities or worksites
that the business does not own or operate (such as, by way of example,
residential cleaning service operations at client homes), the business must
submit a Social Distancing Protocol for its operation as a whole.

Order of the County Health Officer
Establishing Revised Risk Reduction Measures
To Contain COVID-I9 (Issued October 5,2A2A)
Page 6

of9

3. The Social Distancing Protocol must be completed using the tillable r.vebform
and submitted to the County Public Health Department at

.@.AllSocialDistancingProtocolswillbestored
and available in a publicly accessible database.

4. The Social Distancing Protocol must be completed by a person authorized to
complete and sign it on behalf of the business, and it must be signed under
penalty of perjury. All businesses must provide evidence of implernentation of
their Social Distancing Protocol to any authority enforcing this Order upon
demand.

5. All

businesses with facilities or worksites that are curently open must submit a
new Social Distancing Protocol using a revised template within 14 days of the
effective date of this Order as a condition of continued operation. Prior Social
Distancing Protocols are no longer valid 14 days after the effective date of this
Order.

6. A full copy of the current Social Distancing Protocol for

each facility or
worksite must be distributed to each person performing work at that business
location and made available to customers upon request. For any business that
only performs services for dispersed facilities or worksites that the business
does not own or operate, a copy of the Social Distancing Protocol must be
provided to each person performing work for that business in the County, and
also to the owner or operator of each facility or worksite where it performs

services.

7. A COVID-I9 PREPARED Sign and Social Distancing Protocol Visitor
Information Sheet, which can only be downloaded and printed upon completion
of the webform, must be posted at or near the entrance of the relevant facility or
business worksite for which an individual Social Distancing Protocol is
required, and shall be easily viewable by the public and personnel from outside
the facility or worksite. This includes all construction worksites. Any business
that only performs services for dispersed facilities or worksites that the
businesses does not own or operate is not required to post a COVID-I9
PREPARED Sign or Social Distancing Protocol Visitor lnformation Sheet.

d.

Mandatory Reporting Regarding Personnel Contracting COVID-I9. Businesses
and governmental entities must require that all personnel immediately alert the business
or governmental entity if they test positive for COVID-19 and were present in the
workplace within the 48 hours prior to onset of symptoms or within 48 hours of the
date on which they were tested. In the event that a business or governmental entity
learns that any of its personnel is a confirmed positive case of COVID-l9 and was at

Order of the County Health Officer
Establishing Revised Risk Reduction Measures
To Contain COVID'19 (Issued October 5,2020)

PageT of9

the workplace in this timeltame, the business or governrnental entity is required to
report the positive case within four hours to the Public Health Department at

wgu.s@.Businessesandgovernmentalentitiesmustalsocomp1y

with all case investigation, contact tracing, and outbreak investigation measures by the
County, including providing any information requested within the timefrarne provided
by the County, instructing employccs to follow isolation and quarantine protocols
specified by the County, and excluding positive cases and close contacts from the
workplace during these isolation and quarantine periods.
13. Prohibited Business Operations and Activities. In addition to complying with the State
Order's prohibitions on certain business operations and activities, businesses and individuals
must comply with any directives or orders of the Health Officer suspending certain business
operations or activities or requiring specified facilities to close.
14.

Transit. Transit agencies rnust facilitate compliance with Social Distancing Requirements tr:
the greatest extent feasible. All people must comply with the Face Covering Guidance in
Section l0 and Social Distancing Requirements in Section 9 while riding or waiting for public
transit, except people specifically exempted.

15.

Enforcement. Pursuant to Government Code sections 26602 and 41601, Health and Safety
Code section 1AlA29, and Santa Clara County Ordinance Code section Al-34 et seq.,the
Health Officer requests that the Sherifl all chiefs of police in the County, and all enforcement
officers ensure compliance with and enforce this Order. The violation of any provision of this
Order constitutes an imminent threat and menace to public health, constihltes a public
nuisance, and is punishable by fine, imprisorunent, or both.
Date. This Order shall become effective on 12:01 a.m. on the day following
announcement by the California Department of Public Health that the County has entered Tier
3 (Orange Tier) under the State's "Blueprint for a Safer Economy" as described at
covidl9.ca.gov. This Order shall continue to be in effect until it is rescinded, superseded, or
amended in writing by the Health Officer.

16. Effective

17. Copies. Copies of this Order shall promptly be: (l) made available at the County Covernment
Center at 70 W. Hedding Street, San Jos6, California; (2) posted on the County Public Health
Department website (yrs:y.5sgphdgg); and (3) provided to any mcmber of the public

requesting a copy of this Order.

Order of the County Health Officer
Establishing Revised Risk Reduction Measures
To Contain COVID-I9 (Issued October 5,2AZA)
Page 8

of9

18.

Severability. If any provision of this Order or its application to any person or circumstance is
held to be invalid, the remainder of the Order, including the application of such part or
provision to other persons or circumstances, shall not be affected and shall continue in full
force and effect. To this end, the provisions of this Order are severable.

IT IS SO ORDERED:

2ola

Dated:
Cody, M.D.
Health Officer ofthe County of Santa Clara

Approved as to form and legality:

Dated:

Williams
County Counsel
J ames R

Order of the County Health Officer
Establishing Revised Risk Reduction Measures
To Contain COVID-l9 (Issued October 5,202A)
Page 9

of9

Io

f Tata

EXHIBIT

66f)"

,,@

6@
'.r:r

Santa Clara Countv

PUBLIC

HEALTH

MANDATORY
DIRECTIVE:

Gatherings

lssued July 14,2020
sccg ov. org / co ro navi ru s

Revised and Effective: February 12,2A21

County of Santa Clara
Public Health Department
Health Officer
976 Lenzen Avenue, 2"d Floor
San Jos6, CA 95126
408.792.5040

MANDATORY DIRECTIVE FOR GATHERINGS
*Please confirm that your gathering is allowed under the State Order. Where there is a
difference between the local County Order and the State Order, the more restrictive order
must be followed.*

Information on the State's Order and State guidance is available at covidlg.ca.gov

Issued: July 14,2020
Revised and Effective: February 12,2021
Effective Upon Release

Every person, business, and entity in Santa Clara County must follow both the County and the
State Public Health Officer Orders. Below is information on: (1) the State's general gathering
rules, and (2) the current rules for indoor gatherings in Santa Clara County.

1. General State Gatherinss Rules:

As of January 25,2021, the State's Regional Stay at Home Order is no longer in effect rn
Santa Clara County.
On August 28,2020, the State issued a Statewide Public Health Officer Order ("State Order,"
available here and the Blueprint for a Safer Economy ("Blueprint," available here). The State
Order and Blueprint establish statewide restrictions applicable to each "tier" to which counties
are assigned.
The State Health Officer has generally prohibited gatherings of all kinds statewide, with
limited exceptions for worship services, cultural ceremonies like weddings and funerals,
protest or political activities, and any gathering that is explicitly allowed by a State COVID-19
Industry Guidance document (https:llcoviatq.c
) or by the State's
"Stay home Q&A" page (https://covidl9.c
). The
State also allows private gatherings consisting of no more than three households pursuant to
the State's rules, but such gatherings must be outdoors while the County is in the Purple Tier.

Mandatory Directive on Capacity Limitations (Order issued Oct. 5,

2020)

Page 1 of 12

Board of Supervisors: Mike Wasserman, Cindy Chavez, Otto Lee, Susan Ellenberg, S. Joseph Simitian
County Executive: Jeffrey V. Smith

All gatherings are subject to the mandatory requirements in this Directive

and any other
applicable County Health Officer Directive, the County Health Officer's Revised Risk
Reduction Order issued on October 5,2020, the applicable restrictions under the State Order
and Blueprint, the State's COVID-l9 Industry Guidance documents, and any applicable health
and safety regulations.

Note:Whlle wedding ceremonies may occur outdoors subject to the mandatory requirements
of this Directive, the State has clarified that "[w]edding receptions/parties/celebrations are
NOT permitted at this time" under State Public Health Officer orders.

2. Current Rules for Indoor Gatherings in Santa Clara Countv:

Religious worship services may occur indoors at2\Yo capacity. They must comply with all
rules listed in this Directive for indoor gatherings. The Health Officer strongly discourages
such indoor gatherings and urges religious institutions and congregants not to attend indoor
gatherings.
Because indoor gatherings continue to pose a severe risk of COVID-19 transmission, all other
indoor gatherings are currently prohibited. No gatherings other than religious worship
services may occur indoors, and the rules listed below for indoor gatherings do not apply to

anv satherinss other than relisious

services until this restriction is lifted.

While COVID-19 is still circulating in our community, the Health Officer strongly discourages
any gathering together with people from other households. Indoor gatherings are particularly
risky because COVID-I9 transmission occurs more easily indoors than outdoors, and COVID-I9
continues to circulate widely. The most recent scientific evidence underscores the risk of
transmission indoors, and indoor gatherings are always strongly discouraged, even when
allowed. But gatherings are not prohibited by this Directive as long as everyone attending the
gathering strictly complies with all the requirements set forth below to reduce risk and keep
everyone who attends as safe as possible.

A "gathering" is an event, assembly, meeting, or convening that brings together multiple people
from separate households in a single space, indoors or outdoors, at the same time and in a
coordinated fashion-like a wedding, banquet, conference, religious service, festival, fair,party,
performance, competition, movie theater operation, fitness class, barbecue, protest, or picnic.
Although the County allows all types of gatherings to occur in compliance with this Directive, at
this time the State generally allows gatherings only for purposes of worship services, cultural
ceremonies like funerals and weddings (but not wedding receptions, which are prohibited), and
protest or political activities. The State also allows gatherings for purposes identified in the
State's Industry Guidance or any other State guidance document. The State also allows small
gatherings of any type with no more than three households. These gatherings must follow the
Mandatory Directive for Gatherings
(Order Issued October 5,2020)

Page 2 of 12

County's rules (contained in this Directive) and the State's rules, including the State requirement
that such gatherings must be outdoors when counties are in the Purple Tier. Because the stricter
of the requirements applies, the only types of gatherings allowed in the County are those allowed
by the State.
This Directive does not regulate whether a facility is open or closed. For example, facilities that
are typically used for gatherings-such as places of worship, meeting halls, and event spacesmay remain open for purposes that do not involve gatherings, even when gatherings are
prohibited indoors.
This Directive explains the local requirements for gatherings in Santa Clara County. This
Directive is mandatory, and, failure to follow it is a violation of the Health Officer's Order
issued October 5,2020 ("Order").
The Order Issued October 5,2020
The Order imposes several restrictions on all businesses and activities to ensure that the County
stays as safe as possible. All persons and businesses (including nonprofits, educational entities,
and any other business entity, regardless of its corporate structure) that organtze or host
gatherings-such as religious institutions, wedding venues, wedding planners/coordinators,
convention centers, and conference/meeting room rental facilities-must comply with the
following requirements, and must ensure that participants comply with all applicable
requirements:
a

Social Distancing Protocol: All businesses and govemmental entities that have not
akeady done so must fill out and submit an updated Social Distancing Protocol under the
October 5,2020 Health Officer Order. Social Distancing Protocols submitted prior to
October llr2020 are no longer valid. The Revised Social Distancing Protocol must be
filled out using an updated template, which is available here. The Protocol is submitted
under penalty of perjury, meaning that everything written on the form must be truthful
and accurate to the best of the signer's knowledge, and submitting false information is a
crime. The Protocol must be distributed to all workers, and it must be accessible to all
officials who are enforcing the Order.

o

Signage: All businesses and govemmental entities must print (1) an updated COVID-19
PREPARED Sign and (2) a Social Distancing Protocol Visitor Information Sheet, and
both must be posted prominently at all facility entrances. These are available for printing
after submission of the Revised Social Distancing Protocol online. The Revised Social
Distancing Protocol specifies additional signage requirements.

a

Face Coverings: Everyone must wear face coverings at all times specified in the
California Department of Public Health's mandatory Guidance for the Use of Face
Coverings ("Face Covering Guidance") and in any specific directives issued by the

Mandatory Directive for Gatherings
(Order Issued October 5,2020)

Page 3 of 12

County Health Officer. Unless otherwise stated in this Directive" face coverings must
be worn at all times when attending a gatherins.
a

Capacity Limitation: All businesses must comply with the capacity limitations
established in the Mandatory Directive on Capacity Limitations.
Mandatory Requirements for

All Gatherings

In general, the more people a person interacts with at a gathering, the closer the physical
interaction is, the more enclosed the gathering space is, and the longer the interaction lasts, the
higher the risk that a person with an unknown SARS-CoV-2 infection (the infection that causes
COVID-I9) might spread it to others. If not everyone follows the rules to safely gather, the risk
of spreading SARS-CoV-2 is even higher. Based on those principles, the Health Offrcer's
directives for all gatherings are:

1. If Gathering, the Health

Officer Strongly Urges You to Gather Outdoors

a.

Gatherings that occur outdoors are significantly safer than indoor gatherings. To
qualify as an outdoor gathering, the gathering must be held entirely outdoors,
except that attendees may go inside to use restrooms as long as the restrooms are
frequently disinfected.

b.

The maximum number of people allowed at an outdoor gathering is specified in
the Mandatory Directive on Capacity Limitations. This includes everyone
present, such as hosts, workers, and guests. The space must be large enough so
that everyone at a gathering can maintain at least 6-foot social distance from
anyone (other than people from their own household).

c.

i.

Example 1: A small church hosts a funeral ceremony in its churchyard.
The churchyard is only big enough to allow 25 people to easily maintain
6-foot social distancing between households at all times. No more than
25 people may be present at the funeral ceremony.

ii.

Example 2: A couple holds their wedding ceremony outdoors at a historic
hotel. The outdoor ceremony space is big enough for 1,000 people to
maintain 6-foot distancing. Even so, no more than the maximum
number of people allowed by the Mandatory Directive on Capacity
Limitations may be present at the wedding ceremony.

A gathering is considered an outdoor gathering only if it is held at a facility that
allows the free flow of outdoor air through the entire space, as specified in the
California Department of Public Health's mandatory guidance on Use of
Temporarlz Structures for Outdoor Business Operations.

Mandatory Directive for Gatherings
(Order Issued October 5,2020)

Page 4

of 12

d.

Fences and screens that do not impede airflow are not considered walls or sides
for purposes of determining whether an area is outdoors. Partitions around or

within the facility may be used and do not qualify as sides so long
more than 3 feet in height as measured from the floor.

2.

as

they are no

Health Officer Strongly Discourages Indoor Gatherings, Even When They Are
Allowed
The

a.

Indoor gatherings may not be allowed depending on the County's current tier
under the State's Blueprint for a Safer Economy and other local factors. See the
"Current Rules for Indoor Gatherings in Santa Clara County" box at the top of
this Directive for information on current rules.

b.

When indoor gatherings are allowed, the maximum number of people allowed at
an indoor gathering is specified in the Mandatory Directive on Capacity
Limitations. This includes everyone present, such as hosts, workers, and guests

3. Don't Attend Gatherings If You Feel Sick or You Are in a High-Risk
a.

Group

If you feel sick or have any COVID-l9-like symptoms (fever, cough, shortness of
breath, chills, night sweats, sore throat, nausea, vomiting, diarrhea, tiredness,
muscle or body aches, headaches, confusion, or loss of sense of taste/smell), you
must stay home and may not attend any gatherings.

b.

As explained on the People Who Need Extra Precautions page, people at higher
risk of severe illness or death from COVID-I9 are strongly urged not to attend
any gatherings.

4. All Gatherings

Must Have an Identified and Designated Host Who Is Responsiblefor
Ensuring Compliance with All Requirements

a. A specific

person or business (including nonprofits, religious organizations,
educational entities, or any other business entity) must be the designated host for a
gathering and ensure compliance with all requirements in the Order and this
Directive. The host is responsible and subject to enforcement for any failure
by participants to comply with the Order and this Directive.

b.

The host also must maintain a list with names and contact information of all
participants at the gathering. If a participant tests positive for COVID-19, the
host is legally required to assist the County Public Health Department in any case
investigation and contact tracing associated with the gathering. Public Health will
ask for the list of attendees only if an attendee tests positive for COVID-19. The

Mandatory Directive for Gatherings
(Order Issued October 5,2020)

Page 5 of 12

County Public Health Department will keep this information confidential and use
it only for case investigation and contract tracing purposes. Hosts must maintain
these records for at least 21 days. The host must provide the list to any County
Enforcement Officer immediately upon request.

5.

Practice Physical Distancing and Hand Hygiene at Gatherings

a.

At all gatherings, everyone must stay at least 6 feet away from other people
(except people in their own household) at all times.

b.

Seating arrangements must provide at least 6 feet of distance (in all directionsfront-to-back and side-to-side) between different households. This can be done

by spacing chairs apart, or for fixed seating like benches or pews, by marking off
rows and indicating seating areas with tape. Seating and tables must be sanitized
after each use.

c.

6.

Rules

Everyone at a gathering should frequently wash their hands with soap and water,
or use hand sanitizer if soap and water are not available. The host must make
handwashing facilities or hand sanitizer available for participants to use.

for Face Coverings, Singing, Chanting, Shouting,

and Playing Wind Instruments

Current scientific evidence shows that COVID-l9 spreads primarily through respiratory droplets
and fine aerosols that are released from the body when people breathe, sing, shout, or otherwise
expel air from their lungs. Face coverings prevent many of these droplets and aerosols from
escaping into the air, and wearing aface covering has been shown to significantly decrease the
risk of COVID-19 transmission. Conversely, singing, chanting, shouting, and playing wind
instruments have all been shown to significantly increase the risk of COVID-19 transmission,
because these activities all release increased amounts of respiratory droplets and fine aerosols
into the air. To reduce the risk of spreading COVID-19, the following rules apply to gatherings:
a.

For all indoor gatherings (when indoor gatherings are allowed):
Everyone, including performers/presenters, must wear a face covering
at all times (except for very young children, people for whom face
coverings are medically inadvisable, or for communication by or with
people who are hearing impaired).

1.

Food and drink may not be served at indoor gatherings-including
at movie theaters-even when indoor gatherings are allowed,
except as necessary to carry out a religious ceremony.

Mandatory Directive for Gatherings
(Order Issued October 5,2020)

Page 6 of 12

2.

ii.

Face coverings may be removed to meet urgent medical needs
example, to use an asthma inhaler, consume items needed to
manage diabetes, take medication, or if feeling light-headed).

(for

Singing, chanting, shouting, and playing wind instruments are strictly

prohibited.

b.

For all outdoor gatherings

i.

Except as described below or in other directives issued by the County
Health Officer, everyone must wear a face covering at all times (except
for very young children, people for whom face coverings are medically
inadvisable, or for communication by or with people who are hearing
impaired).

1.

Attendees may remove their face coverings to eat or drink but must
put their face covering back on as soon as they are finished eating
or drinking.

2.

Attendees may remove their face coverings to meet urgent medical
needs (for example, to use an asthma inhaler, consume items
needed to manage diabetes, take medication, or if feeling lightheaded).

ii. If an outdoor

gathering involves a performance/presentation,
performers/presenters may remove their face coverings while they are
performing/presenting, but they must replace their face coverings after
they finish.

1.

No more than 12 performers/presenters are permitted in the
performance/presentation area at a time.

2.

Until their face covering is back on, any performer/presenter who
removes their face covering to speak must maintain at least 12 feet
of social distance from everyone not in their household.

3.

Until their face covering is back on, any performer/presenter who
removes their face covering to sing, chant, shout, or play a wind
instrument must maintainat least 12 feet of social distance from all
other performers/presenters who are not in their household and at
least 25 feet from all attendees who are not performing/presenting.

Mandatory Directive for Gatherings
(Order Issued October 5,2020)

PageT of12

4.

Any performer/presenter playing a wind instrument must cover the
opening of the instrument (e.g., with cloth) to reduce the spread of
respiratory droplets from the instrument.

5. Performers/presenters who are singing or chanting

are strongly
encouraged to do so at a quiet volume (at or below the volume of a

normal speaking voice).

iii.

7.

All

attendees who are not performing/presenting must wear a face
covering at all times while singing, chanting, or shouting. Because these
activities pose a very high risk of COVID-19 transmission, face coverings
are particularly essential to reduce the spread ofrespiratory droplets and
fine aerosols. People who cannot wear aface covering for medical or
other reasons are strongly discouraged from singing, chanting, or shouting.

1.

Attendees who are singing, chanting, or shouting are strongly
encouraged to maintain increased social distancing greater than 6
feet to fuither reduce risk.

2.

Attendees who are singing or chanting are strongly encouraged to
do so at a quiet volume (at or below the volume of a normal
speaking voice).

Stagger Attendance at Gatherings

a.

For gatherings that have the potential to draw larger groups, like community
meetings or religious services, consider offering multiple sessions, requiring
reservations that cap attendance at each session, staggering arrivals and
departures, and encouraging or requiringthat the same group stays together (for
example, Group A attends the Sunday morning worship service every week, and
Group B attends the separate Tuesday evening worship service every week).

b.

There is no limit on the number of gatherings that may be held at different times
on a single day-for example, a mosque may hold prayer services five times a
day-as long as (i) each gathering follows all the rules, and (ii) restrooms, chairs
and tables, and any other high-touch surfaces are properly sanitized between
groups.

c. A venue may host multiple outdoor

gatherings at the same time (for example,
multiple small barbecues in a large outdoor space like a 2}-acre ranch)-as long
AS:

Mandatory Directive for Gatherings
(Order Issued October 5,2020)

Page 8 of 12

i.

Each gathering follows all the rules in the Order and in this Directive.
Each gathering must, for instance, have its own designated host who must

maintain a list of participant names and contact information.

ii.

Each gathering has its own area marked by prominent signage, barriers, or
ropes, and there is a buffer zone of at least 100 feet between the

boundaries of any two separate gatherings.

d.

iii.

The participants at a gathering, including hosts, workers, and guests, do
not mix between or among different gatherings and stay strictly in their
own area.

iv.

There are sufficient restroom facilities, or a system of using the restroom
facilities, such that participants from different gatherings do not have
contact with one another when they use the restroom.

When indoor gatherings are allowed, a venue may host multiple indoor gatherings
at the same time (for example, multiple gatherings in separate rooms within a
building)-as long as:

i.

ii.
111

Each gathering follows all the rules in the Order and in this Directive.
Each gathering must, for instance, have its own designated host who must
maintain a list of participant names and contact information.
Each gathering is fully separated by solid, floor-to-ceiling walls or
partitions from any other gathering.
Where possible, the HVAC system for each space with a gathering should
ventilate to the outdoors, rather than into a space with another gathering.

iv. The participants

at a gathering, including hosts, workers, and guests, do
not mix between or among different gatherings and do not enter into a
common space with participants from any other gathering.

v.

There are sufficient restroom facilities, or a system of using the restroom
facilities, such that participants from different gatherings do not have
contact with one another when they use the restroom.

8. Livestreaming, Broadcasting, and Recording with No Audience Present
Mandatory Directive for Gatherings
(Order Issued October 5,2020)

Page 9

of

12

Businesses may livestream, broadcast, or record performances, services, and classes at indoor
facilities without live audiences or members of the public present. All such livestreamed,
broadcasted, or recorded events at indoor facilities must comply with the following rules:

a.

When livestreaming under this provision, only personnel may be present at the
facility. Audiences or other members of the public are strictly prohibited. The
number of personnel inside the facility must be limited to the minimum necessary
to conduct the event (and may never exceed 12 people or the maximum number of
people allowed under the facility's current capacity limitation as dictated by
the Mandatorly Directive on Capacity Limitations, whichever is fewer).

b. All personnel, including

performers/presenters in the performance area, must
maintain at least 6 feet of physical distance from everyone outside their household
at all times.

c

People performing or presenting during a livestreamed event may remove their
face coverings during the performance or presentation if everyone maintains at

least 12 feet of physical distance from everyone outside their household at all
times. Even so, the Health Officer strongly urges people performing or presenting
to wear a face covering whenever possible. All others on-site must wear a face
covering in compliance with State and County Health Officer requirements.

d.

When livestreaming under this provision with no audience present, singing,
chanting, or playing wind instruments indoors is strongly discouraged but may
occur so long as everyone maintains at least 12 feet of physical distance from
everyone outside their household.

For clarity, the above rules for livestreaming, broadcasting, and recording do not apply if any
member of the public is present for the event. Businesses may livestream, broadcast, or
otherwise record an event at which members of the public are present (so long as current State
and County Health Officer orders allow members of the public to be present for such an event),
but there are no special rules that would apply to the livestream, broadcast, or recording. Instead,
these events must comply with all rules currently governing the business's general operations.
Note that these rules may be stricter those listed above.

9.

Maximize Ventilationfor Indoor Gatherings (Wen Indoor Gatherings Are Allowed)

a.

Open doors and windows to maximize circulation of outdoor air whenever
environmental conditions and building requirements allow. Consider
modifications to the facility to increase outdoor air exchange, such as replacing

Mandatory Directive for Gatherings
(Order Issued October 5,2020)

Page 10

of12

non-opening windows with openable screened windows. Contact your local
Building Department for more information on permit requirements.

b.

Indoor facilities with central air handling/HVAC systems must ensure that HVAC
systems are serviced and functioning properly and, to the extent feasible and
appropriate to the facility:
Evaluate possibilities for and implement upgrades to the system to ensure
that air filters are functioning at the highest efficiency compatible with the
currently installed filter rack and air handling system (ideally MERV-I3
or greater).

ii.

Increase the percentage of outdoor air through the HVAC system,
readj usting or overriding rec irculation ("econo mizer") dampers.

Disable demand-control ventilation controls that reduce air supply based
on temperafure or occupancy.
IV

Implement the additional measures set forth in the County's Guidance for
Ventilation and Air Filtration Systems.

c. Indoor facilities that do not have central air handling/HVAC systems or that do
not operate or control the system must take the following measures, to the extent
feasible and appropriate to the facility:
Set any ceiling fans to draw air upwards away from participants.

ii.

iii.
1V

d.

If using portable

fans, position them near open doors/windows and use
them to draw or blow inside air to the outside of the facility. Position fans
to minimize blowing air between occupants, which may spread aerosols.

Consider installing portable air filters appropriate to the space.

Implement additional applicable measures set forth in the County's
Guidance for Ventilation and Air Filtration Systems.

Upon request by a County Enforcement Officer or County Public Health
Department Staff, the facility may be required to perform a comprehensive
evaluation of the facility's ventilation and air filtration system by an appropriately
licensed professional, and produce documentation regarding this evaluation to the
County.

Mandatory Directive for Gatherings
(Order Issued October 5,2020)

Page

ll

of12

Stuy

fnformed

For answers to frequently asked questions about this industry and other topics, please see
the FAOs page. Please note that this Directive may be updated. For up-to-date information on
the Health Officer Order, please visit the County Public Health Department's website
at www. sccgov. org/coronavirus.

Mandatory Directive for Gatherings
(Order Issued October 5,2020)

Page 12

ofl2

EXHIBIT

C(E))

Santa Clara County

PUBL!C

HEALTH

MANDATORY
DIRECTIVE:
:

cap ac tv
a

a

L

a

a

m t at lons

lssued November 15, 2020
scca ov. or g / co ro n avi ru s

Revised and Effective: February 12,2021

County of Santa Clara
Public Health Departrnent
Health Officer
97 6 LenzenAvenue, 2"d Floor
San Jos6, CA 95126
408.792.5040

MANDATORY DIRECTIVE ON CAPACITY LIMITATIONS
*Please confirm that your facility may open under the State Order.
Where there is a
difference between the local County Order and the State Order, the more restrictive order
must be followed. The State also has specific guidance for certain facilities that must be
followed in addition to this mandatory directive.*

Information on the State's Order and State guidance is available at covidlg,ca.gov
Issued: November 15, 2020
Revised and Effective: February 12,2021
Effective Upon Release
On August 28,2020, the State issued a Stutewide Public Health Officer Order ("State
Order," avuiluble here) and the Blueprint for a Sofe, Economy ("Blueprint,"
available here). The Stute Order and Blueprint establish statewide restrictions applicable
to each "tier" to which counties are assigned.

All

in the County Health Officer's Revised Risk
Reduction Order issued on October 5,2020 ("Revised Risk Reduction Order"), including
any for-prffi, non-proJit, or educational entity, mustfollow the mandutory
requirements in this Directive and any other applicable County Heulth Officer
Directive, the Revised Risk Reduction Order, the applicable restrictions under the State
Order and Blueprint, the State's COVID-I| Industry Guidunce documents, and any
applicable health and safety regulations. Where there is a dffirence between these rules,
the most restrictive rule must be followed.
businesses, as that term is deJined

This Directive establishes the County Health Officer's rules on capacity. The risk of COVID-19
transmission increases when there is a higher number and density of people present at a facility,
particularly when indoors. To reduce this risk, the County Health Officer has established
limitations on the number of people who can be present at a facility at any given time. These
limitations are based on the capacity of the facility and/or the overall number of people who may
be present at any given time. These limitations vary depending on the risk of COVID-l9
Mandatory Directive on Capacity Limitations (Order issued Oct. 5,

2020)

Page 1 of 7

Board of Supervisors: Mike Wasserman, Cindy Chavez, Otto Lee, Susan Ellenberg, S. Joseph Simitian
County Executive: Jeffrey V. Smith

transmission associated with the business or activity, and the risk of the business or activity
causing a super-spreader event.

This Directive is mandatorv. and failure to follow it is a violation of the Health Officer's
Order issued on October 512020 (o'Order").
Mandatory

I.

C apacity

Limitations

Capacity limitations

a. All gatherings, businesses, and entities must limit capacity to allow everyone to easily
maintain at least six feet of physical distance from everyone not in their household at
all times.

b.

A business's "outdoor operations" must meet the definition of that term from the
State's Use of Temporary Structures for Outdoor Business Operations guidance.

c.

The following capacity limitations apply to publicly accessible areas of the following
businesses, entities, and activities:

B usin es s/E

ntity/Activity

Indoors

Outdoors

Twe
Gyms and Fitness Centers
(including swimming pools,
hot tubs, and saunas)
Gatherings (e.g., political
events, weddings, funerals,
worship services, movie
showings, cardroom
operations)

Prohibited, except indoor pools
may operate at2jo/o capacity for
drowning prevention instruction
with certified instructors.
Prohibited.

Allowed, except hot tubs and
saunas must remain closed.

Allowed up to 400 people per
gathering, but subject to the
limitations set forth by the
State, which generally prohibit
all gatherings except religious
services, culfural ceremonies,
political protests, other
gatherings allowed by a State
guidance document, and
outdoor gatherings of up to 3
households.

Note: All gatherings must
comply with the Mandatory
Directive for Gatherings,
including rules for multiple
gatherings.

Mandatory Directive on Capacity Limitations
(Order Issued October 5,2020)

Page2 of7

Bu sin

esslEntity/Activity

Type
Museums, Zoos, and
Aquariums
All Retail Stores (including
grocery stores, drug stores,
and pharmacies)
Indoor Shopping Centers

Outdoors

Indoors
Prohibited.
20%;o

capacity

Allowed. Total indoor capacity

N/A
N/A

N/A

for the shopping center as a
whole is calculated by adding
together the Reduced Maximum
Capacity for each individual
tenant business of the shopping
center that is allowed to open
indoors.

Restaurants

Bars, Breweries, Distilleries

Common areas and food courts
must remain closed.
Prohibited (except for take-out
service; after ordering,
customers may not wait for
takeout orders indoors).
Prohibited (except for take-out
service; after ordering,
customers may not wait for
takeout orders indoors).

N/A

Prohibited (unless alcohol is
served with a meal purchased in
the same transaction).

Wineries

Prohibited (except for take-out
service; after ordering,
customers may not wait for
takeout orders indoors).

N/A

Smoking Lounges

Prohibited.

N/A

Family Entertainment Centers
and Other Entertainment
Facilities
Recreational Facilitres
Lodging Facilities

Prohibited.

NiA

Prohibited.
Allowed for purposes specified
in Mandatory Directive for
Lodging; specific use areas
(e.g., gyms and retail) are

N/A
N/A

Mandatory Directive on Capacity Limitations
(Order Issued October 5,2020)

Page3

of7

Business/E

ntity/Activity

Indoors

Outdoors

Tvpe

Personal Care Businesses
(e.g., hair salons and barber
shops; nail care; body art,
tattoo, and piercing shops;
esthetician, skin care, and
cosmetology services;

electrology, waxing,
threading, and other hair
removal services)
Non-essential Limited
Services (e.g., pet grooming,
shoe repair)
Public Transit

subject to specific capacity
limitations in this Directive
20o/o capacity

N/A

20oh capacity

N/A

All indoor waiting

areas

N/A

accessible to the public are

limited to 20Yo capacity.
Limit the number of people
entering the facility to allow
people to easily maintain at
least six feet ofphysical
distance from everyone outside
their household at all times
(unless it would interfere with
provision ofcare).

Healthcare Facilities

All Other Essential Critical
Infrastructure Facilities
(including governmental
facilities)
Any Other Facility Allowed to
Open to the Public Under
State and Local Orders

N/A

20o/o capacity

N/A

20Yo capacity.

N/A

Metering Requirement

2.

System

a.

to "Meter"

the Number of People in a

Facility

Except acute care hospitals, any business with an indoor facility that members of
the public are allowed to enter must develop and implement written procedures to
"meter" or track the number of persons entering and exiting the facility to ensure
that the maximum capacity for the facility or area is not exceeded. For example,

Mandatory Directive on Capacity Limitations
(Order Issued October 5,2020)

Page 4

ofl

an employee of the business may be posted at each entrance to the facility to
perform this function. The written procedures must also require staff to ensure all
members of the public entering the facility who are required to wear face
coverings are wearing them properly to cover both their nose and mouth.

b.

The business must provide a copy of its written "metering" procedures to an
Enforcement Officer upon request and disclose the number of members of the
- public currently present in the facility.
Workplace Breakrooms and Break Areas

3.

Limit access to indoor brealcrooms and break areas

a.

In all facilities except acute care hospitals, businesses must prohibit personnel from using
any indoor breakrooms or break areas for eating, drinking, or resting (even if they are
alone in the room at the time), or for any gathering. Businesses may allow personnel to
access these spaces only as necessary to use appliances (such as coffee makers,
refrigerators, or microwaves), or to use alone for other purposes provided by law (such as
lactation).

b.

A business is required to limit access to indoor breakrooms or break areas as described in
Section 3(a) above unless it can demonstrate that (1) federal or state labor or workplace
safety laws prohibit the business from limiting access to its indoor breakrooms and break
areas as described in Section 3(a), and (2) the business is unable to implement any
alternatives (such as setting up outdoor spaces where personnel can maintain distancing
of at least six feet from one another while taking breaks; staggering break times to ensure
employees have sufficient time for outdoor or other socially distanced breaks; or any
other appropriate measures).
l.

To invoke this provision, the business must do all of the following:
Implement procedures to help employees use indoor breakrooms more
safely (such as staggering break times, limiting the number of employees
using the break room at one time, increasing ventilation in the room, and
regularly cleaning and disinfecting high-touch surfaces); AND

1.

2. Draft a written protocol that (1) identifies the specific federal or state
law(s) prohibiting it from limiting access to its indoor breakrooms or
break areas as required by Section 3(a), (2) explains why it cannot
implement alternatives to an indoor breakroom or break area, and (3)
identifies the steps it is taking to ensure indoor breakrooms and break
areas are operated safely;AND
Mandatory Directive on Capacity Limitations
(Order Issued October 5,2020)

Page 5

of7

3. Prominently post its written protocol in or near its indoor breakrooms and

break areas; AND
4. Immediately provide a copy of its written protocol to any employee or
County Enforcement Officer upon request.
C alc

4.

u

lating Muxim u m

C ap

acity

Calculating indoor capacity limitations

a.

Capacity limitations apply to every room or area in a facility in which members of the
public spend time or engage in regulated activities. Rooms or areas thatare subject to
capacity limitations are considered "capacity-limited rooms/areas."

b.

Capacity limitations must be based on the normal maximum occupancy for each
capacity-limited room/areathat has a posted maximum occupancy. If there is not a
posted normal maximum occupancy, capacity limitations must be based on the square
footage of each capacity-limited room/area.

c.

Gyms, fitness facilities, and family entertainment centers must use gross square
footage for each capacity-limited room/area (when indoor operation is allowed).
other facilities must use net square footage for each capacity-limited room/area.

All

d.

Capacity limitations establish the maximum number of people who may be present,
including both members the public and personnel.

e

For assistance in calculating capacity limitations and answers to frequently asked
questions, please visit www. sccgov.org/covidcapacity.

Signage

J.

Signage Requirements

a.

Reduced Maximum Capacity signs must be posted for each capacity-limited

room/area that is subject to a specific percentage capacity limitation identified in
Section 2 of this Directive.

b.

Each sign must clearly state the maximum number of people who may be inside that
particular capacity-limited room/area at the same time under this Directive. A
template of the Reduced Maximum Capacity sign is available here.

Mandatory Directive on Capacity Limitations
(Order Issued October 5,2020)

Page 6 of 7

c. Each room/area must have one Reduced Maximum

Capacity sign posted at each
entrance. The signs must be clearly visible to anyone entering the room.

d.

Reduced Maximum Capacity signs must be updated to reflect any changes in the

allowable capacity.

e.

For assistance in completing Reduced Maximum Capacity signage, please visit
www. sccgov. org/covidcapac itv.
Stay Informed

For answers to frequently asked questions about capacity limitations and other topics, please see
the FAQ page. Please note that this Directive may be updated. For up-to-date information on
the Health Officer Order, visit the County Public Health Department's website at
www.sccsov.

Mandatory Directive on Capacity Limitations
(Order Issued October 5,2020)

PageT

of7

EXHIBIT

66F"

Social Distancing Protocol - Novel Coronavirus (COVID-19) - County of Santa Clara

2t18t2021

r.fjI,IHfi

,.l-\ F|iHLTE countvof santa
U.J hEjiiifi Emergency Operati

OF SANTI\ CTIRJ\

sccg{}v

Crara

How Do

1...

w

Public Health

Do v

Learn What to

searching for.

v

Coronavirus Facts and

Businesses and Workplaces

Archives v

News

Orders

I am

FREE COVID-l9

V

Testing

Data v

Our County Response

v

COVID-19 Vaccine

Novel Coronavirus (COVID-19)
slow the spread - frene la propagaci6n
hdy

lim chdm

s\.r

'

RISK REDUCTION ORDER

;1il,ffi1'$fi6

l6y nhi6m b6nh ' ipabagal ang pagkalat

Home

Quick Links

Socia I Distancing Protocol

English

'i: it.

{::p*i':r.ti

'1

irn;i

r.1iri

lf you think you
are sick

l";ty.,;slrsl:,

County Services

-

v -d, il€

,;d.!, ,

\\

Social Distancing Protocol

l' .'*',-il
*
,,-@)

-ft',

During COVID-19

Eviction

Moratorium
lnformation

The County of Santa Clara requires al[ businesses to

complete a Revised SociaI Distancing ProtocoI and

Healthcare

submit this document to the County. This tool helps

Provider

ensure our community is prepared to contain the

lnformation

spread of COVID-19.
PLEASE BE ADVISED:

Underthe Revised Risk Reduction

Frequently Asked

Order issued October5, ALL businesses must complete

Questions and

a NEW Socia[ Distancing Protocol using the revised

Ask a Question

webform that can be found at the link below. Social
https ://www,sccgov.org/sites/covid

1

9/Pages/social-distancing-protocol.aspx

1t7

Social Distancing Protocol - Novel Coronavirus (COVID-19) - County of Santa Clara

2t18t2021

Distancing Protocols submitted priorto October 11,
Share a Concern

2020 are no lonser valid.

There is also a NEW Capacity Limitation Requirement

2-7-7for

underthe Revised Risk Reduction order issued October

Coronavirus

5, as wellas a NEW Mandatory Directive on Capacity

Questions

Limitations issued on November 15. Review detailed
instructions at COVID-19 Capacity Limitations.

CDPH Novel

Coronavirus lnfo

Please review the instructions below on how to

complete the Revised SociaI Distancing ProtocoI
required by each business located in the County

CDC Novel

Coronavirus

Social Distancing Protocol Business Database

Updates

m

Business Database
Search by:

. Name
. Type

wMtffi

. Location

ldpJ(<govorg

--

Customers and the generat public are encouraged to
view the list of businesses that have submitted their
Revised Social Distancing Protocol to help ensure our

community is prepared to operate safely.

lnstructions for Submitting a Revised Social
Distancing Protocol
All businesses in Santa Ctara County must fil[ out

a

Revised Social Distancing Protocoland submit it to the

County using the link below.
Please read allof these instructions before you click on

the link below.

https://www.sccgov. org/sites/covid

1

9/Pages/social-distancing-protocol.aspx

2t7

Social Distancing Protocol - Novel Coronavirus (COVID-19) - County of Santa Clara

2t18t2021

The Revised Social Distancing Protocolhas new
requirements and you must fitt out this version even if

you previously completed an olderversion.
What to expect When you click on the link below, you

wilt be able to fitl out a Revised SociaI Distancing
Protocol. The Protocol requires you to enter

information that:

o

ldentifies and provides contact information for
the business and the person responsible for
ensuring compliance with the Protocot (this wilt
usuatly be an owner or manager)

o

Confirms that the business is posting proper
signage

.

Confirms that the business is properly training its
workers

o

Confirms that the business is putting measures in
place to protect its workers and the public

o

Confirms that the business has an adequate plan
in place if a worker tests positive for COVID-19

.

Certifies under penalty of perjury that the

information submitted is true and accurate to
knowledge of the person signing the Protocol

Certification under penalty of perjury: The Protocol
cannot be submitted unless it is signed under penalty
of perjury by a person who is authorized by the
business. lf you are filling out this form, you must
ensure that you have been authorized to complete the

form and submit it for the business. Once you complete

the Protocol at the link below, you wil[ need to sign the
Protocol using an electronic DocuSign signature. (You

cannot sign using pen and paper.) Submitting the
Protocol under penalty of perjury means everything on

the form must be truthfulto the best of your

https://www.sccgov.org/sites/covid

1

9/Pages/social-distancing-protocol.aspx

3t7

Social Distancing Protocol - Novel Coronavirus (COVID-19) - County of Santa Clara

2t18t2021

knowledge, and including information you know is
fatse is a crime.
The information you submit is publicly accessible:

Protocols are publicly accessible documents, and the
County wi[[ post all completed Protocols ontine. Altthe

information you enter in the Protocolwill be viewable
by the public.

Confirmation and printout of the Protocol, updated

Sheet Once
you complete and certify the Protocol, you will receive
"COVID-19 PREPARED" sign, and Summary

a

confirmation email. The confirmation emailwill

include a link to a PDF of your completed Protocol. You
wi[[ be able to print out the completed Protocol. The
completed Protocol must be distributed as required in
the October 5 Order, including to a[[workers. The PDF
wil[ also inctude an updated "COVID-19 PREPARED"
sign specific to your business, as wel1 as the Social

Distancing ProtocolVisitor lnformation Sheet. The sign
and visitor information sheet must be posted at or near

the entrance of the facility that is the subject of the
Protoco[.
lf you don't finish the Protocol in one

sitting: When

filling out the Protocol, you will see a "Finish later"
button. lf you click this button, you will receive an

emailthat atlows you to continue completing the form
at a later time. lf you do not ctick this button before you
sign out or close the window, allthe information you

inserted witl be lost, and you will need to start from
scratch to submit your Protocol.
Revisions and corrections: Once you complete and

submit the Protocol, you cannot make changes to that

particular Protocol. However, you may complete and
submit a new Protocolif you would like to update,
revise, or correct the origina[. lf you have already

submitted a Protocolto the County on its website using
https://wwwsccgov.org/sites/covid'l 9/Pages/social-distancing-protocol.aspx

417

2t18t2021

Social Dlstancing Protocol - Novel Coronavirus (COVID-19) - County of Santa Clara

the link below, please be sure you check the box in the
first section of the ProtocoI stating "Replacement
Protoco[."
More questions? See the County's FAQ section on the
SociaI Distancing Protocol for more information.

All businesses in Santa Clara County must fitl out

a

Social Distancing Protocol and submit it to tlie County
using the link below.
Please read all of these instructions before you click on

the link below.

Click here to complete the Social
Dista ncing Protocol Form
Please click here for a preview of the SociatDistancing

Protocol Form.

https://www.sccgov.org/sites/covid

1

9/Pages/social-distancing-protocol.aspx

517

Social Distancing Protocol - Novel Coronavirus (COVID-19) - County of Santa Clara

211812021

r

HOW TO SUBMIT A SOCIAL DISTAN

Last updated: 1212812020 3:03 PM

Report a problem with this page

tr

I.ANGUAGES

FOLLOW PHD

+E

B Facebook

United Way

Espaffol

t

Twitter

2-L-l:CaII24

California

Tidng Vi€t

o YouTube

hours a day,7

Department

Subscribe to

days a week,

of Public

our

Tagalog

@

available in

Health

newsletter in

150

(cDPH)

English,

Center for

Chinese,

Disease

Spanish, or

lnstagram

in Linkedln

CONTACT

languages

MORE

PUBLIC

INFORMATION

HEALTH
DISPATCH

Vietnamese
https://www.sccgov.org/sites/covid

1

9iPages/social-distancing-protocol.aspx

617

2t18t2021

Social Distancing Protocol - Novel Coronavirus (COVID-19) - County of Santa Clara

ControI and
Prevention
(cDc)

ABOUT SCCGOV

TERMS OF

MOBILE

sCC 50C|AL

USE

GAL:.ERY

MEDIA

Departments

Accessibility

SCCDineOut

Facebook

Contact Us

Links Poticy

SCCVector

Twitter

County Holidays

Privacy

SCCVOTE

Newsroom

Policy

Parking and

Terms of Use

Agencies &

Transit

Property Tax
Payment
Weed Hazard

lnformation

View All

All Content Copyright

https ://www. sccgov. org/sites/covid

1

@

9/Pages/social-d istancin g-protocol.aspx

2021 , County ofSanta Clara, CA

717

EXHIBIT

ECG))

1\V

t t vA

vl,t'tulnL

uJD.

Jntvll

LL

vltL

I

REVISED Social Distancins Protocol
COVID-I 9 Site-SpeciJic Protection Plan

FiiHt'iB

ffi

HEALTH \=7

Legal Business Name:

Fictitious Business Name (if any):
Address of the specific facility or worksite that is the subject of this Protocol (Complete one protocol for
each facility or worksite. If the business only performs services at facilities or worksites that the business does
not own or operate-for example, a housecleaning or lawncare business-the business must check the "No
Business Facility" box below and this protocol must cover those services):
Street Address and Unit Number:

CitY:

Zip Code:

tr

No Business Facility: Only check this box if the business only performs services at
facilities/worksites that the business does not own or operate, and provide full mailing address
for the business here:

Mailing Street Address:
City:

Zip Code:
Type of Business:

FacilityAilorksite visited by public: YES or NO or Not Applicable

Individual Owner or Manager Responsible for Ensuring Compliance with Protocol
(Note: This information will be publicly accessible)

Name:
Phone number:

Title:
Email Address:

This Protocol was submitted on:
Please check if applicable:
n Replacement Protocol: This business already submitted a Revised Social Distancing Protocol on
the County's website after October 11, 2020 using this webform. This protocol replaces a Revised
Protocol that was previously submitted on the County's website after October 11, 2020.

Businesses must implement all applicable measures listed below and
be prepared to explain why any measure that is not implemented is inapplicable to the business.
Businesses must regularly evaluate the facility or worksite that is the subject of this submission for compliance

with this Protocol.
Signage:

facility or worksite that informs personnel and customers of the
following (signage meeting this requirement can be downloaded and printed from the County's COVIDPost signage at each entrance of the
19 website):

I
fl

Do not enter if you have COVID-l9 symptoms;
Stay at least six feet away from others at all times;

REVISED Social Distancing Protocol Template

-

Updated October 11,2020

REVISED Social Distancing Protocol
C OVID- I 9 Site-SpeciJic Protection Plan

dh

FtiHL'iu ...7
HEALTH

fl Face coverings required to enter (except for very young children, if medically

inadvisable, or

for communication by or with people who are hearing impaired);

fl

Cover sneezes and coughs with cloth, tissue, or elbow;

n

Do not shake hands or engage in unnecessary physical contact.

Post signage at appropriate locations throughout the facility/worksite reminding everyone to wear face
coverings and stay at least six feet away from others.

r

Post a copy of your updated COVID-l9 PREPARED Sign and Social Distancing Protocol Visitor
Information Sheet at each entrance where they can easily be viewed. These documents will be provided
to you electronically when you submit this Revised Social Distancing Protocol.

Personnel Training:

After submission, distribute copies of the completed Protocol to all personnel, and train all personnel on
this Protocol.

n

For businesses that perform services for facilities or worksites that the business does not own or
operate, distribute a copy of the completed Protocol to the owner or operator of each facility or
worksite where the business performs services.

Train personnel on basic information regarding COVID-l9 from the CDC available at
19-ncov/index
including how to prevent COVID-l9 from
spreading, who is especially wlnerable to the disease, and when to seek medical attention.
Train personnel on screening themselves for COVID-l9 symptoms, including temperature and/or
symptom checks using CDC guidelines available at https://www.cdc.sov/coronavirusl20l9ncov/slzmptoms-testin g/symptoms.html.

n

Train personnel on the need to stay home and get tested if they have a frequent cough, fever, difficulty
breathing, chills, muscle or body aches, headache, sore throat, nausea, vomiting, diarrhea, tiredness, or
recent loss of taste or smell. Ensure all personnel know they must also stay home if they or someone
they live with has been diagnosed with COVID-l9, or if they've had close contact with someone
diagnosed with COVID- I 9.

n

Train personnel on County guidance for when it is safe to retum to work if they have COVID-19
symptoms, have tested positive for COVID-l9, or have had close contact with someone who has tested
positive for COVID-19. County guidelines are available at:
https://www.sccgov.org/sites/covidl9/Pages/business-guidance.aspx#business_safety_guidance.

tr

Train personnel on the need for frequent handwashing with soap and water, mandatory face coverings,
the importance of social distancing, and other measures required in this Protocol.

I

Train personnel on the importance of getting tested for COVID-l9 in accordance with County guidance
available at https://www.sccgov.org/sites/covidl9/Pages/covidl9-testing.aspx, and explain that testing is
available through their healthcare provider or at free community testing sites (www.sccfreetest.ory)

n

Inform personnel that they can report any deficiencies in compliance with Social Distancing Protocol
requirements by this business or any other at which they may work at www.sccCOVlDconcerns.org or
by calling the County Office of Labor Standards Enforcement Advice Line at 866-870-7725.

tr

Inform personnel about employer or government-sponsored leave benefits that personnel may be entitled

REVISED Social Distancing Protocol Template

-

Updated October

11,2020

2

REVISED Social Distancing Protocol
Site-Specific Protection Plan

C OVID- 1 9

ffi

FtiEt?u \{y
HEALTH

to receive, including those benefits identified at the following address:
https ://www. labor. ca. gov/corona virus2} I 9 I #chart.

Train personnel on new or modified COVID-l9 safety measures immediately upon updating this
Protocol.

Optional-Describe other measures this business plans to take to train personnel on COVID-l9 safety
and related issues:

Individusl Control Measures snd Screenings:
Maximize the number of personnel who work from home. Businesses must direct all personnel who
can perform their assigned work duties from home to do so, and they must prohibit those personnel
from performing those work duties at the facility or worksite.
For personnel who are not working from home:

n
I

Direct all workers not to come to work if sick or exhibiting symptoms of COVID-l9.

Ask all personnel if they have COVID-19 symptoms at the beginning of each shift, and screen
all other people before they enter the facility or worksite. Send personnel home if they report
COVID-l9 symptoms. (*Note, temperature screenings with thermometer or thermal scanner are
not required, and can increase COVID-19 risk if many employees convene in the same place for
temperature screening. )

I

n

Require all persons, except those exempted from face covering requirements, to properly wear
face coverings at all times in accordance with the California Department of Public Health's
mandatory Guidance for the Use of Face Coverings and the Health Officer's Order. Exemptions
to the face coverings requirement include very young children, people for whom face coverings
are medically inadvisable, or for communication by or with people who are hearing impaired.

Optional-Describe other

measures

:

Handwushing and Hand-Ssnitiz.ing Protocols :

I
I

Encourage frequent handwashing or use of hand sanitizer and provide frequent breaks for handwashing.

Hand sanitizer and/or soap and water are available at or near the site entrance, at checkout counters, and
at various locations throughout the site to enable the public and staff to frequently clean their hands.

n

Handwashing and other sanitary facilities are operational and stocked at all times.

n

Optional-Describeothermeasures:

Cleanins and Disinfectins Protocols

tr

Thoroughly and regularly clean any high traffic areas (including seating areas, break rooms, bathrooms,
and other common areas) and frequently disinfect any high-contact surfaces (including doorknobs,
handrails, counters, tables, checkout areas, cash registers, telephones, elevator controls, etc.).

REVISED Social Distancing Protocol Template - Updated October

11,2020

3

REVISIiD Social Distancing Protocol
C OVID- 1 9

Site-Specijic Protection Plan

Santa Clara

Countv

z-ffif

PUBL:C F'r ,,f,)
HEALTH

n

\-7

Disinfecting wipes that are effective against COVID-19 are available for use by customers and
personnel near shopping carts and baskets if shopping carts and baskets are used at the facility.
Assign staff to disinfect carts and baskets regularly that are used at the facility if shopping carts and
baskets are used at the facility.

Disinfect any shared equipment and touchable surfaces like payment portals and pens after each use.
Install contactless devices (including contactless payment systems, motion sensor lights, automatic soap
and towel dispensers, and contactless timecard systems) if possible.

n

Adjust operational hours to provide adequate time for cleaning and stocking with social distancing, and
provide time for any workers to clean between shifts.
To improve ventilation, filtration, and outdoor air exchange:

n Evaluate HVAC system (if applicable)

to make sure it is properly functioning, and have

it regularly serviced.

n

Consider upgrades to HVAC and building air filtration systems and implement any
feasible improvements to these systems (for example, to enhance air filtration efficiency
and increase the percentage of outdoor air through the HVAC system).

E

Open windows and doors throughout the facility when environmental, building, and

safety conditions allow.

Optional-Describe other measures

:

Measures to Maintain Sociul Distancins:

Limit the number of people in the facility/worksite to allow adequate social distancing (six feet
minimum) at all times and to comply with any applicable capacity restrictions in the Health Officer
Order.

n Review, comply with, and enforce any applicable
following all instructions listed at www. scc

capacity limitations for the facility,
gov. org/covidcapacity.

Designate a staff person to ensure that the maximum number of occupants is not exceeded, that all
persons are wearing face coverings if required by the Health Officer Order, and that people entering
comply with other provisions of this Protocol. Ensure that this person is more than six feet away from
others to maintain adequate social distance.
Require that all persons at the facility/worksite stay at least six feet away from all other persons,
except as strictly necessary to perform job functions.
Place tape or other markings at least six feet apart in customer line areas inside the store and on
sidewalks at public entrances with signs directing customers to use the markings to maintain social
distance.

n

If feasible, increase remote (online and telephone) purchasing, delivery, and curbside pickup service
options.

REVISED Social Distancing Protocol Template

-

Updated October

11,2020

4

REVISED Social Distancing Protocol
1 9 Site-Speciftc Protection Plan

FtiHL'iu

COVID-

HEALTH

tr
n

ffi
r-z

Separate order areas from delivery areas to prevent customers from gathering.

Minimize any in-person meetings and adjust those that

are necessary

to ensure adequate social

distancing.

n

Stagger personnel breaks, in compliance with wage and hour regulations, to reduce the number
workers taking breaks together.

n

Where possible, create outdoor break areas with shade covers as a substitute for indoor break
areas. Encourage staff to eat their meals and take their breaks socially distanced outdoors when
conditions allow.

n

Limit

tr

Require workers to maintain 6-foot social distance at all times while on breaks, and preferably
more distance if eating or drinking. Reconfigure break areas to facilitate social distancing.

of

of outdoor break areas and prevent
crowding. Discourage or prohibit eating or drinking in small, enclosed break rooms if less risky
alternative areas exist for staff to take their meals (such as outdoors or socially distanced at
individual workstations).
access to or close indoor break rooms to encourage use

Maximize the use of outdoor space for interactions or transactions with customers to minimize the time
that customers and personnel are indoors, particularly when in close proximity to one another.

Optional-Describe other measures

:

Procedure if u Person ut the Facilin/ll/orksite Tests Positive for COVID-I9

n

Review and comply with all measures listed at www.sccsafeworkplace.org in the event of a
confirmed case of COVID-19 amongst personnel.
Create, and post in an area easily viewable by personnel, a plan to comply with all applicable
measures listed at www.sccsafeworkplace.org in the event of a confirmed case of COVID-l9 amongst
personnel. Depending on the type of facility, these measures will likely include, among others:

T

Immediately removing the infected person from the facility/worksite and ensuring they are no
longer occupying the same space as any other personnel.
Instructing the infected person to stay home and isolate in accordance with the instructions listed
at www. sccsafeworkplace. org.

Notiffing the County Public Health Department within four hours of learning of the positive
case

by following the instructions at www.sccsafeworkplace.org.

Identifying any workers (and customers, if known) who had close contact with the infected
person.

n

Complying immediately with any case investigation, contact tracing, and worksite
investigation measures by the County Public Health Department. This will include providing
the names, addresses, phone numbers, and work dates and times for close contacts of the
infected person, which employers are required by law to provide to the County Public Health
Department upon request. ,

!

Excluding all close contacts from the facility/worksite or any other jobsite in accordance with

REVISED Social Distancing Protocol Template

-

Updated October

11,2020

5

REVISED Social Distancing Protocol
COVID- 1 9 Site-Specijlc Protection PIan

Santa Clara

County

ffi\

PUBIIC fitr,f,]
HEATTH

y=

the instructions listed at www. sccsafeworkplace. org.

Implementing cleaning and disinfection measures for areas recently visited by the infected
person as set forth in www.sccsafeworkplace.org, and closing off areas visited by the infected
person until cleaning and disinfection is complete.

Additional Measures
Review and implement measures in any applicable industry-specific directives issued by the County
Health Officer and COVID-l9 Industry-Specific Guidance issued by the Califomia Department of
Public Health.
Describe any additional health and safety measures implemented (e.g. providing restricted shopping hours
for seniors and other individuals at high risk for COVID-19):

Certification

n

I affirm that this

business

will provide all personnel with a copy of this Revised Social Distancing

Protocol and conduct trainings as required in this Revised Social Distancing Protocol; that this business

will post copies of the updated COVID-l9 PREPARED Sign, Social Distancing Protocol Visitor
Information Sheet, and signage as required herein; that any signage posted pursuant to the instructions
listed at www.sccgov.org/covidcapacity is accurate; that the business will implement all applicable
measures as set forth herein; that this Revised Social Distancing Protocol may be made publicly
available; that I am authorized to complete and sign this certification on behalf of this business; that I
understand that failure to comply with requirements imposed by the Health Officer of the County of
Santa Clara (including this Revised Social Distancing Protocol) is unlawful and may subject the
business or responsible individuals to punishment by imprisonment or a fine or both; that this business
accepts service by email at the email address indicated below of all documents associated with
administrative enforcement of the Health Officer Order; and that all information in this Revised Social
Distancing Protocol is complete and accurate to the best of my knowledge formed after diligent and
thorough investigation.

I certify under penalty of perjury under the laws of the State of California that the foregoing

is true and

correct.
Name:
Date:

Title:
Email:
Phone:

Signature:

REVISED Social Distancing Protocol Template

-

Updated October 11,2020

6

Social Distancing Protocol

Visitor lnformation

ftiHll"gfr
HEATTH rsg/

Last updated:
Business Name:
Address:

Summary of Customer-Facinq Requirements

o
o
o

Handwashing facilities or sanitizer is available near the facility entrance.

An employee has been designated to ensure the maximum number of customers is not
exceeded and all persons are wearing face coverings.
Tape or marked at least six feet apart where people form lines.

Report a Complaint
lf you are a customer or member of the public and would like to report a complaint about this or
another business not following a Social Distancing Protocol, visit scccovidconcerns.org.
lf you are an employee, and would like to report a complaint about this business, visit
www.sccfairworkplace.orq or call the Office of Labor Standards Enforcement at 866-870-7725.

Learn More
To view the County Health Officer's Order and other information related to COVID-19, visit
sccgov.orglcoronavirus. To view this business'social distancing protocol visit

www.covid 1 9prepared.org.
The person responsible for implementing this business's protocol is

',,.,. a- {

1..

t'. i

.

Name

Title

Email

Phone Number

/:

) | t.l 1 .., t'; I I 1 I 1 r1, 1 i ; t

1':;

'}l:t:r.,rlir;:n
{..,-:,,.,,
':t,:r';l;: i.1;tt;t {-t.:t-;rtl.'l l:r*t:'..i::t',:,1
i.

j :,..),t r,..t r.1 {-) :..
i

:,.

t

tl

t r,:

r

I

t

)i);l

i.}

i',ll ,) |
"

COVID-l9 Prepared
Health Order lssuance Date:

tolo,12020

This business,
Social Distancing Protocol to prevent the spread of COVID-19.
to learn how to file a complaint, see this business's
Social Distancing Protocol Visitor lnformation Sheet (required to be posted
For more information or

with this sign) or visit sccgov.orglcoronavirus.

has completed a

Santa Clara

Countv z@x
(".t, ,ri

PUBUC

HEALTH

--

---.

